<html>
<title> - OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2009

                               __________

                           Serial No. 111-65



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-098                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

    HENRY A. WAXMAN, California
              Chairman
JOHN D. DINGELL, Michigan
  Chairman Emeritus
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
FRANK PALLONE, Jr., New Jersey
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
GENE GREEN, Texas
DIANA DeGETTE, Colorado
  Vice Chairman
LOIS CAPPS, California
MICHAEL F. DOYLE, Pennsylvania
JANE HARMAN, California
TOM ALLEN, Maine
JANICE D. SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
ANTHONY D. WEINER, New York
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont                 JOE BARTON, Texas
                                       Ranking Member
                                     RALPH M. HALL, Texas
                                     FRED UPTON, Michigan
                                     CLIFF STEARNS, Florida
                                     NATHAN DEAL, Georgia
                                     ED WHITFIELD, Kentucky
                                     JOHN SHIMKUS, Illinois
                                     JOHN B. SHADEGG, Arizona
                                     ROY BLUNT, Missouri
                                     STEVE BUYER, Indiana
                                     GEORGE RADANOVICH, California
                                     JOSEPH R. PITTS, Pennsylvania
                                     MARY BONO MACK, California
                                     GREG WALDEN, Oregon
                                     LEE TERRY, Nebraska
                                     MIKE ROGERS, Michigan
                                     SUE WILKINS MYRICK, North Carolina
                                     JOHN SULLIVAN, Oklahoma
                                     TIM MURPHY, Pennsylvania
                                     MICHAEL C. BURGESS, Texas
                                     MARSHA BLACKBURN, Tennessee
                                     PHIL GINGREY, Georgia
                                     STEVE SCALISE, Louisiana
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              J. DENNIS HASTERT, Illinois
ANNA G. ESHOO, California            CLIFF STEARNS, Florida
BART STUPAK, Michigan                NATHAN DEAL, Georgia
DIANA DeGETTE, Colorado              BARBARA CUBIN, Wyoming
MICHAEL F. DOYLE, Pennsylvania       JOHN SHIMKUS, Illinois
JAY INSLEE, Washington               HEATHER WILSON, New Mexico
ANTHONY D. WEINER, New York          CHARLES W. ``CHIP'' PICKERING, 
G.K. BUTTERFIELD, North Carolina         Mississippi
CHARLIE MELANCON, Louisiana          VITO FOSELLA, New York
BARON P. HILL, Indiana               GEORGE RADANOVICH, California
DORIS O. MATSUI, California          MARY BONO MACK, California
DONNA M. CHRISTENSEN, Virgin         GREG WALDEN, Oregon
    Islands                          LEE TERRY, Nebraska
KATHY CASTOR, Florida                MIKE FERGUSON, New Jersey
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)












                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................
    Prepared statement...........................................
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............
Hon. Roy Blunt, a Representative in Congress from the State of 
  Missouri, opening statement....................................
    Prepared statement...........................................
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................
Hon. Nathan Deal, a Representative in Congress from the State of 
  Georgia, opening statement.....................................
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................
Hon. Mike Rogers, a Representative in Congress from the State of 
  Michigan, opening statement....................................
    Prepared statement...........................................
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................
Hon. John B. Shadegg, a Representative in Congress from the State 
  of Arizona, opening statement..................................
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................
Hon. Zachary T. Space, a Representative in Congress from the 
  State of Ohio, opening statement...............................
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................

                               Witnesses

Julius Genachowski, Chairman, Federal Communications Commission..
    Prepared statement...........................................
    Answers to submitted questions...............................
Michael Copps, Commissioner, Federal Communications Commission...
    Prepared statement...........................................
    Answers to submitted questions...............................
Robert McDowell, Commissioner, Federal Communications Commission.
    Prepared statement...........................................
    Answers to submitted questions...............................
Mignon Clyburn, Commissioner, Federal Communications Commission..
    Prepared statement...........................................
    Answers to submitted questions...............................
Meredith Attwell Baker, Commissioner, Federal Communications 
  Commission.....................................................
    Prepared statement...........................................
    Answers to submitted questions...............................

 
           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2009

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Rick Boucher 
[chairman of the subcommittee] presiding.
    Present: Representatives Boucher, Markey, Rush, Eshoo, 
Stupak, Doyle, Inslee, Weiner, Butterfield, Matsui, 
Christensen, Castor, Space, Welch, Dingell, Waxman (Ex 
Officio), Stearns, Upton, Deal, Shimkus, Shadegg, Blunt, Buyer, 
Walden, Terry, Rogers, Blackburn, and Barton (Ex Officio).
    Staff Present: Neil Fried, Minority Counsel; and Garrett 
Golding, Minority Legislative Analyst.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. Good morning to everyone. Today the 
subcommittee conducts its first oversight hearing of the 
Federal Communications Commission during the course of the 
111th Congress. This hearing was postponed from the originally 
scheduled date in July, and one benefit of the postponement is 
that today we have a full complement of FCC commissioners 
before us. I am pleased to welcome each of you this morning. 
And I would note that for Chairman Julius Genachowski and 
Commissioners Mignon Clyburn and Meredith Baker, today marks 
their inaugural appearance before the House as members of the 
FCC. We look forward to seeing more of each of you in the 
months to come and to working closely with you as together we 
address the Nation's telecommunications needs.
    Before commenting on current issues, I want to take this 
opportunity to commend Commissioner Copps for his leadership in 
helping to assure the DTV transition and serving as acting 
chairman with great distinction during a period of several busy 
months. Your commitment, Commissioner Copps, to consumer 
education and including the deployment of knowledgeable staff 
around the Nation was essential to ensuring that the vast 
majority of households were prepared for the transition on the 
transition date of June 13.
    I also want to commend Commissioner McDowell for his 
collaboration with Commissioner Copps on that effort, and 
particularly thank him for his role in bringing attention to 
the fact that, as of last January, the FCC's call centers were 
inadequately staffed and badly underprepared to handle the 
expected high volume of calls from viewers who were seeking 
technical assistance.
    Chairman Genachowski, from our previous discussions, I am 
very much aware of the priority that you are assigning to the 
creation of a broadband plan for the Nation which is due in mid 
February next year. The blueprint is urgently needed to promote 
universal broadband access, to achieve data rates that are 
substantially higher than the average speeds that users have 
available today, and to promote greater demand for broadband 
among those who have access but choose not to subscribe to it. 
I know that you share these goals, and we look forward to 
working with you very closely as you prepare this plan, and 
look forward to the plan that you will present in the early 
months of next year.
    Many other matters are receiving both our attention and 
yours. I will comment briefly on several of them, and ask for 
any views you care to express this morning about these matters.
    Our subcommittee has scheduled an upcoming hearing on the 
need for a Nationwide fully interoperable communications 
network for first responders, during which we will hear from 
first responders, from commercial wireless carriers, and from 
other interested parties. A variety of proposals has been put 
forth for how the DBLOCK of 700 megahertz spectrum should be 
utilized in meeting that goal. And if you have given attention 
to this matter and have any thoughts you would like to share 
with us this morning about how we can assure that our Nation 
has fully interoperable communications capabilities for first 
responders, we would welcome those views.
    We are having bipartisan discussions among our subcommittee 
members about an appropriate statutory reform of the Federal 
Universal Service Fund, and I anticipate that a comprehensive 
reform measure, a bill, will be introduced by subcommittee 
members with bipartisan support in the very near future. We 
have introduced with bipartisan support a measure designed to 
inventory the radio spectrum with the goal of making available 
additional spectrum for commercial wireless services. And later 
in this Congress, we intend to put forward legislation broader 
needs with respect to wireless services and a measure extending 
a clear set of privacy rights to Internet users. I expect that 
each of these measures will be constructed in a bipartisan 
process and be introduced with bipartisan participation. Any 
views that you currently have on this range of matters and 
would care to express to us this morning, we would be very 
happy to hear.
    Today's hearing is an opportunity for Chairman Genachowski 
and Commission members to tell us about their agenda for 
upcoming efforts to enhance our Nation's telecommunications 
capabilities, and we very much look forward to your testimony 
and thank you for your time here with us this morning.
    That concludes my opening statement. I am pleased now to 
recognize our ranking Republican member of the subcommittee, 
the gentleman from Florida, Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning. And thank you, Mr. Chairman. 
Thank you for having this very important hearing. This 
subcommittee's oversight of the FCC is obviously one of its 
primary missions. I would like to welcome Chairman Genachowski 
and Commissioners Clyburn and Baker who, as the chairman 
mentioned, are testifying to our committee for the first time. 
I appreciate your willingness to appear before us today so we 
can better understand perhaps what your priorities are and how 
we can all work together. I also want to take this moment to 
thank Commissioner Baker for her work at the NTIA to make the 
DTV coupon program work despite the last-minute delays by my 
colleagues. So I want to recognize her for her strong efforts.
    Perhaps I could say I wish the Commission to adhere to the 
Hippocratic oath, do no harm. The communication sector has not 
been immune from the economic distress that has been faced by 
the country during the last year. The FCC's goals should be to 
help the communications sector to recover and, frankly, to 
encourage companies to invest in new facilities and equipment 
that will bring broadband connection faster to most Americans.
    The stimulus requires the FCC to present Congress with a 
national broadband plan by February 17, 2010. For broadband to 
reach its full potential in this country and be a truly 
transformative factor in our economy, the Commission must not 
undermine the climate it has helped to create over the last few 
years; that is, encouraging massive private investment in 
broadband.
    While many wring their hands over the OECD ratings and 
ranking, we are I think, frankly, doing well. The Pew Internet 
& American Life Project reports that 63 percent of U.S. 
households have adopted broadband as of April 2009, up from 53 
percent in May 2008. By contrast, the European Commission says 
that only 36 percent of the European Union households have such 
service.
    From 2001 to 2008, the FCC charted the right course for the 
broadband market, employing a light regulatory touch to 
encourage this investment. The result was the exponential 
growth in broadband subscribership and bandwidth consumption. 
But a reversal by the FCC of the current regulatory framework 
would greatly undermine investment at a rather inopportune 
time.
    There has been some speculation about what the new 
Commission is going to do about net neutrality regulations. 
Everybody wants the Internet to remain open and accessible, but 
many of us are concerned that adopting new policies involving 
net neutrality could impede network operators from bringing new 
Internet-based products and services that consumers want. At 
this stage of the game, when the Internet is still evolving, 
government intervention in the form of net neutrality 
regulation is both unnecessary and anti-consumer.
    Along with broadband, the Commission has opened multiple 
inquiries into the wireless industry. The wireless sector is a 
great success story and one of the real bright spots in the 
otherwise challenged economy today. More than 99 percent of the 
consumers have one or more choices in wireless carriers; more 
than 95 percent have three or more choices; more than 90 
percent have four or more choices; and, almost 65 percent have 
five or more choices today. Indeed, the U.S. wireless market is 
the second least concentrated of all the 26 OECD nations. So, 
as a result, wireless consumers today are paying less for 
better services. In fact, between 1993 and 2008, the average 
local monthly bill has dropped to $51 from $101 in constant 
dollars. During this same timeframe the cost per minute has 
dropped to 4 cents from 44 cents, and the average minutes of 
use has grown from 140 to 758k the most of any country.
    Now, on the subject of spectrum. I hope the commissioners 
and members of this subcommittee will work closely to secure 
additional spectrum for commercial use. As recent press reports 
have noted, the explosive growth and the demand for bandwidth 
as consumers access new applications and upload user-generated 
content will tax the limits of carriers' capacity probably more 
quickly than most of us realize. While advances in technology 
can help solve this problem by allowing for the more efficient 
use of spectrum, policymakers will have to do our part by 
making more of this critical resource available. Many of our 
international trading partners are already taking steps to make 
additional spectrum available in their markets. If we fail to 
do so, we risk ceding our global leadership in wireless service 
and innovation.
    So, for this reason, I urge my colleagues to support the 
bipartisan spectrum inventory legislation, which I hope we can 
act upon this year, Mr. Chairman.
    As we can tell, the FCC will be very busy in the upcoming 
year and next year, so I look forward to hearing from our 
witnesses. Thank you.
    [The prepared statement of Mr. Stearns follows:]
    Mr. Boucher. Thank you very much, Mr. Stearns. The chairman 
of the full Energy and Commerce Committee, the gentleman from 
California, Mr. Waxman, is recognized for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
welcome the full FCC here for our very first oversight hearing, 
and especially the new chair, Mr. Genachowski. I would like to 
join you in thanking Commissioner Copps for his outstanding 
work as interim FCC chair. Under his able leadership, the 
digital television transition went well, and the Commission got 
back to business. Thank you for your service. And I would like 
to thank Commissioners McDowell and Baker for the important 
roles they played in the DTV transmission. We are all aware of 
their commendable efforts to help improve the transition.
    Chairman Genachowski, you take the helm at a critical time 
in the Communication's policy, and I am confident that you can 
continue Commissioner Copps' work of getting the Commission 
staff organized, energized, and focused on consumers. I know 
that your colleagues at the Commission are enthusiastic about 
your collaborative leadership and your vision for the Agency.
    I am pleased that the Commission has already launched a 
comprehensive proceeding to craft a national broadband plan. 
This is of immense importance to virtually every aspect of our 
society and how we will function in the 21st century. The 
success of your work will be essential to delivery of health 
care, education, to jobs, economic growth, to science and the 
arts, to journalism and the media. Indeed, your forthcoming 
national broadband plan is critical to America's 
competitiveness and leadership in the world.
    Of course, any broadband plan must address issues related 
to wireless broadband, including spectrum availability. The 
committee has before it a bipartisan spectrum inventory bill 
that would start the critical process of making more spectrum 
available for broadband services. The FCC will play a critical 
role in this process, and I am confident that you understand 
the need to do so efficiently and quickly.
    We also need to consider ways we might expedite the 
construction of the wireless facilities that are critical to 
broadband deployment. This is an infrastructure issue that is 
critical to the successful deployment of broadband services. 
Simply put, without additional facilities, there will be no 
additional broadband. And I am particularly interested to learn 
how broadband can help other initiatives important to this 
committee, including smart grid technologies and the health IT 
transformation.
    President Obama has made ensuring an open Internet a 
central plank in his communications policy platform, and he has 
my full support. The Internet is a vital doorway to opportunity 
for many, whether to distribute new content, to develop a new 
application, or simply to search for a new job. We must ensure 
that the Internet remains the engine of economic growth and 
technological innovation that helps propel our people and our 
economy forward.
    The fear some have professed that net neutrality rules will 
stifle network investment have proven unfounded over the years. 
Most recently, over 2,200 public and private entities applied 
for broadband grants and, in so doing, opted in to net 
neutrality rules. Industry will benefit from clarity, 
consistency, and predictability with regard to net neutrality. 
As a member who has worked hard to protect the intellectual 
property rights of our creative communities, I do not believe 
net neutrality and strong copyright protection are mutually 
exclusive goals. In fact, clear net neutrality rules should 
help broadband network operators explore innovative steps 
designed to stop the theft of online content.
    I know that our new FCC chairman shares my perspective on 
the importance of achieving both goals.
    For these reasons, I think that the time is right to 
formally establish, through legislation, if required, the rules 
of the road with respect to net neutrality. Accordingly, I have 
asked Mr. Markey to add me as a cosponsor to H.R. 3458, the 
Internet Freedom Preservation Act. And I will also continue to 
support Chairman Boucher's efforts to lead willing parties to a 
negotiated solution.
    I also support the Commission's effort to examine the state 
of competition in the wireless industry. Most agree that the 
best protection for consumers is robust competition. And while 
I recognize the competitive nature of the wireless industry, I 
do see some warning clouds on the horizon. More specifically, I 
believe the FCC should act soon to resolve problems with 
special access services and certain roaming arrangements.
    I want to thank the Commission for making public safety's 
need a top priority and initiating a study of the options for 
the DBLOCK. We must act soon to improve the state of public 
safety communications, and I am anxious to review your plans 
and to work with you to ensure we find the most effective way 
for the public safety community to obtain access to the 
spectrum it needs. And I am pleased that Chairman Boucher plans 
to hold a hearing on this topic in the near future.
    Clearly, I have only touched on a few of the critical 
issues before the new FCC, but I am encouraged by the new 
spirit of comity and collaboration that you all espouse, and I 
hope that Congress will approach these important policy issues 
in the same manner. I look forward to your testimony and the 
hearing. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Chairman Waxman. The 
gentleman from Michigan, Mr. Upton, is recognized for two 
minutes.
    Mr. Upton. I am going to waive.
    Mr. Boucher. The gentleman from Michigan waives his opening 
statement and will have 2 minutes added to his questioning time 
for our witnesses this morning. The gentleman from Illinois, 
Mr. Shimkus, is recognized for two minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I will try to go 
quick also.
    I appreciate the commissioners present and the opportunity 
to sit down with most of you. Some of you I have known for a 
while, and the new folks, and have taken that time, very, very 
helpful and important. Chairman Genachowski, I appreciate your 
meeting with me and then rapidly putting the kids.gov link up 
on the FCC site, something Ed Markey and I have been working on 
for a long time and you identified that it wasn't being 
promoted and you responded rapidly. And that was on your own 
initiative, not mine.
    DBLOCK is critical. I have been in the 911 emergency 
communications issue, along with Anna, for many, many years 
now, and we just have to get this right and be prepared for the 
next time, before the next time happens. And you all know what 
I am talking about.
    The Nationwide broadband deployment without having a 
Nationwide broadband map is it putting the cart without the 
horse. Southern Illinois looked at the Kentucky model, and we 
think that is important. And siting of towers. We have 
eventually got to have a time when the debate stops and we get 
tower site, especially in rural areas. If there is no wireless, 
there is no E-911. And in the end, I want to thank the 
coalition of more than 50 public interest groups and civil 
rights groups for reminding the me that the fairness doctrine 
is still part of the debate. Now, I went through and my staff 
went through the Republican staff briefing. Nothing was talked 
about on the fairness doctrine. But because these groups have 
now raised it, there may be some debate on the fairness 
doctrine. I think there is a congressional majority vote on the 
floor in opposition to reinstituting the fairness doctrine. We 
are ready to continue to have those debates, but it is just 
curious that we wouldn't have mentioned it had these groups not 
intervened. And I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Shimkus. The 
gentleman from Massachusetts, Mr. Markey, is recognized for 2 
minutes.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. I thank the chairman very much, and I welcome 
our incredible new cast, Chairman Genachowski and Commissioner 
Clyburn, Commissioner Baker, as well as our two veterans, 
Commissioner Copps and Commissioner McDowell. Welcome back.
    As the author--and, by the way, someone who served our 
committee for 20 years, Colin Crowell, who is sitting behind 
you there, just sitting over their shoulder instead of mine as 
he has for all these years. As the author of the amendment 
requiring the development of a national broadband plan by next 
February, I am particularly interested in the Commission's 
progress in this area. The national broadband plan is among the 
most significant things the Commission will do since the 
implementation of the Telecom Act of 1996, and it is essential 
that we get it right. I would emphasize the opportunity we have 
given to you, and I urge you to dream big in terms of the plan 
you put together for our country. Give us a plan that speaks to 
our highest aspirations as a society, not just to promote 
greater broadband availability, affordability, speeds, or 
competition, which we certainly need, but also a plan that 
animates technology policy with ideas for addressing 
opportunity, advancing better quality, and more affordable 
health care, and spurring greater innovation to lesser our 
independence on foreign oil through energy efficiency, smart 
grid technologies.
    I will be proposing measures such as E-Rate 2.0, building 
upon my original conception of the E-Rate from 1994, which 
included community colleges and Head Start facilities in the 
program. This is but one of several ideas that I would be 
suggesting.
    The same thing is true for net neutrality, as Chairman 
Waxman and Congresswoman Eshoo have always been focusing upon. 
Special access. We have to ensure that we get that issue right. 
I have introduced a bill on video accessibility and 21st 
century communications to make sure that all consumers, 
regardless of disability, have access to all of these new 
technologies. And I do believe that it's important for us to 
look at this handset exclusivity issue.
    And one other thing I would just like to add is that 
nothing drives people crazier than to buy a new phone from the 
same company, and then you have to buy a charger for that new 
rather than having the old one that you have already purchased 
from that company work. So can we do something about that? That 
drives people crazy. Okay? They just hate it. So I would like 
to make that for you a special project, because people wind up 
with all these chargers over a number of years and one of them 
was working very well for them. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Markey.
    The gentleman from Missouri, Mr. Blunt, is recognized for 2 
minutes.

   OPENING STATEMENT OF HON. ROY BLUNT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mr. Blunt. Thank you, Mr. Chairman. And I want to join 
everyone else in welcoming the Commission here today, 
particularly our new commissioners. I would like to say, 
specifically to Commissioner Clyburn, that her dad and I were 
the whips together for one Congress, we talked virtually every 
single day of that Congress, and he is a good friend of mine 
and I look forward to doing what I can to be helpful to you and 
the other commissioners, and we are glad to have all of you 
here today.
    This is important work. It is work that it is really hard 
to anticipate the changes that will occur. Talking earlier 
today about a telecom bill that we worked on just a few years 
ago, by the time we got to the end of that particular piece of 
legislation, it seems to me that nothing we debated at the 
beginning of the legislation still mattered by the time we were 
still 5 years beyond that debate, and that is the world that 
you live in and have to work with. Certainly it is a dynamic 
area. It is competitive. The ingenuity, the entrepreneurialism, 
the competitive spirit in telecommunications has made a big 
difference. There are a couple of issues that obviously this 
committee will be divided on or at least a number of issues.
    One would be net neutrality. My personal view is that we 
have to be very careful here that any policy that deals with 
net neutrality, a topic that the definition constantly seems to 
change on what it means, we have to be careful with net 
neutrality that we don't undermine both the ability of network 
managers to allow for efficient flow of traffic and that we 
don't undermine the ability of the private sector to get the 
funding and investment that they have grown accustomed to.
    Second, I want to join Mr. Shimkus in expressing my concern 
about any return to the so-called fairness doctrine, and also 
any return to that doctrine through some sort of new definition 
of localism that would really have as its objective returning 
to that doctrine. There are lots of issues that we will be 
talking about today and in the future, spectrum allocation, 
handset explicivity, a national broadband plan, and many 
others. This is an incredibly important assignment for our two 
commissioners who continue to be on the Commission, for the 
three of you, including the chairman that join them, and I hope 
we can be helpful in your work and certainly we are going to be 
incredibly interested in the work that you do. And we are glad 
to have you here today.
    [The prepared statement of Mr. Blunt follows:]
    Mr. Boucher. Thank you very much, Mr. Blunt. The gentleman 
from Michigan, Mr. Stupak, is recognized for 2 minutes.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, for convening this 
hearing. I want to welcome our returning witnesses, Chairman 
Genachowski, Commissioner Copps, and Commissioner McDowell, as 
well as our new witnesses, Commissioners Clyburn and Baker. 
Welcome.
    Today's hearing represents an opportunity for a fresh start 
for the agency and for the telecommunications industry. Last 
year, after an extensive investigation by our Subcommittee on 
Oversight and Investigations, the committee issued a report 
titled Deception and Distrust detailing the mismanagement that 
had occurred at the FCC over the past few years. This 
mismanagement included the manipulation and suppression of 
reports and data that did not agree with the former chairman's 
agenda and a lack of unfettered access to expert FCC staff by 
the commissioners. I don't want to rehash the specifics of the 
report, but I encourage you, if you have not already, to read 
it.
    The FCC has an enormous responsibility, coupled with 
extensive authority, to make decisions that affect the lives of 
millions of Americans and billions of dollars in private and 
public money. With so much at stake, it is your duty to ensure 
that the regulatory decisions you make are done in a 
transparent manner and are based in facts. Not everyone will be 
happy with what you decide, but they should at least feel that 
they had a fair opportunity to present their case before the 
Commission.
    The best way the FCC can promote private investment and 
innovation within the vast universe telecommunications market 
is to provide certainty, the certainty that the FCC will 
consistently make regulatory decisions in a timely, thoughtful, 
and fair manner which benefits consumers and promotes 
competition. I look forward to discussing with you a number of 
issues, old and new, that are pending before the Commission. 
Thank you for being here. And thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Stupak. The 
gentlelady from Tennessee, Mrs. Blackburn, is recognized for 2 
minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. Welcome to all of 
you. We have talked about different issues that are going to 
come before us, and of course we are going to look forward to 
working with you on these. I want to highlight just a couple of 
these as we start our hearing today.
    Net neutrality and control over the Internet is something 
that is important to me and to my Tennessee constituents and 
content producers. It is a very important issue. I think we all 
agree that the market is very competitive and it shows no signs 
of failure. So I am very weary of talk or efforts to increase 
regulations where there is really no compelling case to do so. 
And it has been very well documented, the investment that is 
taking place by the technology companies into product and 
cutting edge technologies and services, and I fear that doing 
anything to thwart that investment or to disincentivize these 
companies would have broad repercussions. And I hope you all 
take that into account before you move forward with the any 
kind of implementation.
    The other component of that is broadband, and the 
investment in broadband does result in jobs. And if companies 
are not able to control their content, then they are going to 
have less money to make those investments and to create new 
employment opportunities. And seeing investment in 
infrastructure remain strong has been encouraging. And I read a 
Brookings Institute study that showed where a 1 percentage 
point increase in broadband penetration in a State, that that 
led to a .2 or .3 percent increase in employment numbers. And I 
think that is worth looking at. I appreciate you all being 
here. I look forward to the conversation. Yield back my time.
    Mr. Boucher. Thank you very much, Mrs. Blackburn. The 
gentleman from California, Mr. McNerney, is recognized for 2 
minutes.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Thank you, Mr. Chairman, for convening 
today's hearing. And I want to thank Chairman Genachowski, 
Commissioners Copps, McDowell, Clyburn, and Baker. I am looking 
forward to getting a chance to know your opinions on these 
issues and getting to know you personally a little bit this 
morning.
    The FCC is working on a range of important and timely 
issues; however, I want to focus my intention on a couple of 
areas. Specifically, the Commission will be offering its 
insights on competition in the special access market. This is 
of particular important to numerous stakeholders in the 
telecommunications industry, and the matter is now pending 
before your Commission. I look forward to working with the 
Commission with my colleagues on the committee and with the 
various stakeholders to find balanced policies.
    I am also interested in hearing from the Commission 
regarding the length of comment periods in response to notices 
of inquiry. The FCC has an obligation to move forward quickly, 
but the industry stakeholders should have sufficient time to 
analyze the proposals, and I want to understand what your 
thinking is in terms of how those periods are determined.
    Now, our country faces some important challenges of 
personal interest to me, namely, net neutrality and 
cybersecurity. Regarding cybersecurity, we now face some very 
big challenges and very great exposure, both in economics and 
in national security, that prompts me to urge you to move 
forward aggressively in that area of cybersecurity. And as we 
hear from the FCC on these and other issues, I am confident 
that we can work together to find solutions that make a lot of 
sense for everyone. So thank you for coming. I yield back the 
balance of my time.
    Mr. Boucher. Thank you very much, Mr. McNerney. The ranking 
Republican member of the full Energy and Commerce Committee, 
the gentleman from Texas, Mr. Barton, is recognized for 5 
minutes.
    Mr. Barton. Thank you, Mr. Chairman. I want to compliment 
you on your timing. I have been here all of 15 seconds. That is 
pretty good.
    Mr. Boucher. We aim to please.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Well, let's hope we keep that attitude.
    I want to welcome our full Commission to the Energy and 
Commerce Committee. We have two veterans and three rookies. And 
to the veterans, I have spoken with each of you individually a 
number of times, and I appreciate the professionalism and the 
personal friendship that each of you have exhibited. And to our 
three new members, I have met with you and I look forward to 
developing that same sort of relationship.
    This is an exciting time for the FCC. There are new 
opportunities. We have a chairman who has got a very positive 
relationship with the President of the United States, and that 
is always a positive. So I think there are some real 
opportunities to do some good things.
    I would recommend that the Commission start by restoring 
transparency and public faith in the Commission. As our two 
veteran commissioners know, in the past the Commission has 
tended to operate, if not exactly in the dark, they certainly 
have been very opaque. And sunlight and transparency is a good 
thing in democracy, and it is certainly a good thing in the 
regulatory agencies.
    The Commission in the past has failed to publish the 
specific text of its proposed rules, has provided little time 
or very little time for public comment, it has taken too long 
to adopt decisions, and it has sometimes taken even months to 
release the text of the specific item. Because of this and 
other reasons, Congressman Stearns and I have introduced H.R. 
2183 that would address those issues. Obviously, that is not a 
perfect bill, and we would welcome any insights that the 
Commission has in terms of how to make it better.
    Broadband policy is something that the new chairman has 
said is a personal interest of his, and my understanding is 
that there is a new broadband policy that is being drafted or 
prepared as we speak that is required by the stimulus package. 
Keep in mind that the state of broadband adoption in the United 
States is actually better, at least in my opinion, than those 
that allege is not for self-serving interest in terms of 
getting more regulation and more public dollars or whatever.
    Many will cite the Organization for Economic Cooperation 
and Development's claim that the U.S. ranks 15th in broadband 
adoption. This report has been thoroughly discredited for, 
among other things, calculating penetration per person than per 
household, and it also ignores wireless connections. As we all 
know, the United States is one of the most wirelessly connected 
Nations in the world. Broadband adoption in the United States 
has been rapid, considering the size and geographic diversity 
of our country. The Pew Internet & American Life Projects 
reports that 63 percent of U.S. households have adopted 
broadband as of April 2009, which is up from 53 percent in May 
of 2008.
    By contrast, the European Commission says that only 36 
percent of the European Union households have such service. So 
I think we are in better shape than we give ourselves credit 
for. I think that our growth has resulted from a deregulatory 
approach we have taken towards these advanced services. I know 
there may be some disagreement amongst our new commissioners, 
but I think the last thing that we should do is to return to an 
old, discredited monopoly era regulatory approach, such as 
forced sharing of network infrastructure and mandatory 
wholesaling of services. History has shown that those type of 
policies serve to deter investment, innovation, and 
competition.
    Mr. Chairman, I have got about four more pages of prepared 
text, so I am going to introduce that for the record because my 
time is about to expire. Let me simply say that 
telecommunication policy has been one of those areas where we 
have had bipartisan cooperation. We just finished the DTV 
transmission. Commissioner Baker had something to do with that 
at her previous post, and Commissioner Clyburn has had an 
impact on that down in South Carolina, and of course our two 
current commissioners were very involved in that and the 
chairman has had quite a bit to say about it in his prior 
private life. So that is, I think, a success in how we can work 
together, and broadband policy and net neutrality are two areas 
that still need to be worked on, and hopefully we can have that 
continued bipartisan success.
    With that, Mr. Chairman, I yield back.
    Mr. Boucher. Thank you very much, Mr. Barton. And I assure 
you that I will read every word of that statement.
    Mr. Barton. I am sure you will, too, Mr. Chairman. It is 
very good.
    Mr. Boucher. I am confident of that. The gentlelady from 
the Virgin Islands, Mrs. Christensen, is recognized for 2 
minutes.

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Chairman. Congratulations, 
Chairman Genachowski, and welcome. I appreciated your visit 
with me and my staff earlier in the year. A special welcome to 
our new commissioners, Mignon Clyburn and Meredith Atwell 
Baker. And welcome back, Commissioner McDowell. Our special 
thanks to Chairman Copps for your leadership during a 
particularly challenging time. But as all of you have said in 
your testimony, the challenges have just begun. I also want to 
acknowledge the helpfulness and responsiveness of the 
Congressional Affairs staff, the great examples of this staff 
that you have praised throughout your testimonies.
    One thing that really stands out as I looked at your 
resumes and statements and the ones that you prepared today, 
that in addition to the intimate familiarity with the depth and 
breadth of the field of telecommunications is the diverse and 
dynamic experience you each bring to the task, and that will 
make for a very strong Commission prepared to tackle the also 
very dynamic and diverse challenges.
    Chairman Genachowski, I commend you for your methodical, 
science-based, data-driven approach to these challenges and the 
in-depth reviews that have taken place or are underway.
    Commissioner Clyburn, you spoke a lot on the need to think 
about the impact on the consumer. I see some of that reflected 
in other comments. And I look forward to the outcome of a 
review on minority and women ownership in the industry and the 
strategies developed to address the lack of diversity.
    Lastly, my daughter, who took it upon herself to call one 
of my carriers to find out why I got a blue tooththat I had not 
ordered and she knew that I probably would have just kept, will 
thank you for the work that you do to make sure that consumers 
like me know what services I have and what I am paying for. So 
we are pleased to have you here before the committee this 
morning, and I look forward to your testimonies and to working 
with all of you.
    Mr. Boucher. Thank you very much, Mrs. Christensen. The 
gentleman from Georgia, Mr. Deal, is recognized for 2 minutes.

  OPENING STATEMENT OF HON. NATHAN DEAL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Deal. Thank you. Welcome to all the commissioners here 
today. As you hear from these opening comments, it indicates 
the diversity of the issues before you, and I appreciate that 
fully.
    I want to focus, and I will do so in my questions, on one 
specific area that continues to be a problem that I think is 
growing larger every day, and that is the issue of content 
exclusivity contracts coupled with the licensing that is under 
your jurisdiction. Now, in the broad general scope of things in 
the TV, video, marketplace, we all generally talk about that in 
terms of retransmission consent authority. I am now growing 
more concerned about that same problem in the radio 
marketplace, and my question later on to you will focus on 
that.
    As I view what is happening in my State, more licenses are 
being granted for radio stations based on so-called underserved 
communities. The only problem is that when the license is 
granted there may be a tower somewhere close to that community, 
but the actual station itself is located in another community, 
in fact, in some instances where three or four separate 
licensed facilities are in the same building. That, coupled 
with the content exclusivity, I think creates a monopoly in the 
marketplace. And I do not know to what extent you have 
authority to deal with that. I don't know whether or not you 
even look at the issue of content exclusivity contracts when 
you are considering the issuance or consolidation of the 
licensing portion of this agenda. So I will explore that more 
completely with you. And I can assure you it has everything to 
do with Georgia football. Thank you. And I yield back my time.
    Mr. Boucher. Thank you very much, Mr. Deal. The chairman 
emeritus of the full Energy and Commerce Committee, the 
gentleman from Michigan, Mr. Dingell, is recognized for 5 
minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you. I commend you for 
this hearing and for the fine job you are doing as chairman of 
the subcommittee.
    I want to express a warm welcome to our witnesses today and 
to you, Chairman Genachowski. It is my hope that, under this 
new leadership, the Federal Communications Commission will 
again enjoy a collegial and productive relationship with this 
committee. Much that falls under the purview of the FCC, 
including universal service reform, spectrum auctions, 
broadband development, wireless competition, requires the 
attention of this committee, and my colleagues and I will 
welcome the willing cooperation of the FCC in addressing these 
matters.
    I intend to focus my questions today on several questions 
of great public and personal concern. First, as our witnesses 
know, I have a keen interest in a thing called forbearance at 
the FCC. I have introduced legislation, H.R. 400, the 
Protecting Consumers Through Proper Forbearance Procedures Act, 
to correct what I perceive as a defect, a serious defect, in 
section 10 of the Communications Act of 1934. And I will be 
inviting your comments, gentlemen and ladies, on that portion 
of your jurisdiction. And I am concerned that unwise actions 
are being cloaked in inaction down at the Commission.
    Second, pertaining to special access, I am interested to 
hear what progress, if any, FCC has made in collecting adequate 
data to determine the state of competition for high capacity 
data services.
    Third, I will enjoy a candid discussion with our witnesses, 
I hope, about the rule pending before the Commission addressing 
interference between Wireless Communications Services, WCS, and 
Satellite Digital Audio Radio Services, SDARS. As my time is 
limited, I may not be able to address all these questions 
properly, and so with the permission of the chair I will submit 
questions for the record. I also will be requesting that 
members of the Commission respond to questions with a yes or no 
answer in the interest of time.
    So members of the Commission, Mr. Chairman, welcome to the 
committee this morning. I think we will have an interesting and 
useful discussion today, and I thank you for your presence. 
Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Dingell.
    The gentleman from Michigan, Mr. Rogers, is recognized for 
2 minutes.

  OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Rogers. Thank you, Mr. Chairman. Mr. Chairman and 
Commissioners, thanks for being here today, and I look forward 
to getting to know the newer commissioners. Welcome.
    Mr. Markey challenged you to dream big. I just hope you are 
not dreaming big of government intrusion, and I hope that you 
look at each issue with a notion to encourage investment. And 
there are issues certainly that we are concerned about, the 
fairness doctrine, broadband. I mean, there is a way that we 
can do this to encourage private investment like we have never 
seen before, and it is in your hands to do that. And I hope 
that is the call that you will take, and not get into the 
temptation for net neutrality. There has been some disturbing 
comments from--public comments about the FCC regulating 
broadcast and print media. I hope that you will resist the urge 
to go beyond what is a standard decorum of government 
involvement in the media. That is very, very concerning to me 
and I know many on this committee, and we will be watching 
awfully closely to make sure that the FCC provides a level of 
certainty in things like special access and a broadband plan 
that allows the private sector to invest. And with that 
certainty--and the quicker the better. With that certainty, we 
will have I think a very competitive broadband plan for the 
United States as well as a free and open media that we I think 
all have grown to understand and respect.
    And so with that I have a statement, Mr. Chairman, for the 
record, and I look forward to having the opportunity to sit 
down individually with each of you all. And Godspeed on what I 
think is going to be a very exciting time through this 
Commission. And I yield back.
    [The prepared statement of Mr. Rogers follows:]
    Mr. Boucher. Thank you very much, Mr. Rogers. The 
gentlelady from California, Ms. Matsui, is recognized for 2 
minutes.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman. Thank you for calling 
today's hearing. I would also like to thank Chairman 
Genachowski and the Commissioners for being with us this 
morning.
    This is a new Commission with some new members, the new 
chairman and Commissioners Clyburn and Baker, and I 
congratulate you on your recent confirmations and I look 
forward to working with all of you with the challenges facing 
us in this day and age.
    It has been widely noted that over the last several years 
the FCC may not have been as focused on the issues that are 
important to consumers and the marketplace in general. Whatever 
the opinion, I believe that there is a need for reform, 
creativity, and thoughtfulness moving forward to ensure 
fairness and competition in the marketplace.
    The FCC has a central role to play in moving our economy 
forward and creating jobs by expanding broadband access across 
the country. To help close the digital divide for millions of 
hard-working families we must also address the affordability of 
broadband services as more households have greater access to 
the Internet. That is why I will soon be introduced legislation 
to expand the universal service funds lifeline assistance 
program for universal broadband adoption, to help more lower-
income Americans living in urban and rural areas in subscribing 
to affordable broadband services.
    I am also particularly interested to hear how the national 
broadband plan will help, and this includes households, 
schools, libraries, health facilities, among others, in urban 
underserved communities achieve greater access to broadband 
services. I am also interested in hearing how the Commission 
plans to address public safety issues so that agencies, local 
law enforcement, and households better communicate during 
emergencies.
    And on the issue of special access, the Commission should 
soon update the data needed to evaluate the level of 
competition in the marketplace. Spectrum availability will be 
key to increased competition, including public safety and to 
encourage new and innovative services. I am looking forward to 
working with my colleagues and the Commission on all of these 
important issues moving forward. And I thank the chairman for 
holding this important hearing today, and I yield back the 
balance of my time.
    Mr. Boucher. Thank you very much, Ms. Matsui. The gentleman 
from Arizona, Mr. Shadegg, is recognized for 2 minutes.

OPENING STATEMENT OF HON. JOHN B. SHADEGG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Shadegg. Thank you, Mr. Chairman. And thank you for 
holding this hearing. I have always found the hearings you held 
in the past in the Energy Subcommittee to be informative and I 
expect nothing less here today. I want to welcome all of our 
witnesses and express my appreciation for their testimony here, 
am anxious to hear it; therefore, I will keep my own remarks 
relatively brief.
    The FCC has played and continues to play a vitally 
important role as our technology and capabilities have 
advanced. I look forward to learning more about the priorities 
of the agency and how we can work together. My particular 
emphasis, however, is on ensuring that the market is as 
competitive as humanly possible. Quite frankly, I think there 
is always a danger of overregulation in these areas, and that 
consumers benefit by regulation which sets the level of control 
at an ability to ensure that there is real competition, because 
I believe real competition benefits the consumers. And that is, 
after all, who I think I am here with a duty to represent.
    I look forward to your discussion of each of the issues, 
but in particular to the issue of special access and the 
special access proceeding. It seems to me that that proceeding 
has drug on too long, that we need to get the information and 
get the decisions made, and we need to make sure that those 
decisions are made in a way that we benefit consumers so that 
they can have the most choice and the most options. I think it 
is critical that action on that proceeding occur as quickly as 
possible.
    I join my friend, Mr. Shimkus, in noting that my staff 
didn't talk to me about the fairness doctrine; but since it is 
being discussed by those who would like to see a new fairness 
doctrine, I am happy to make it clear that I think that is the 
prerogative of the Congress, and I would not be happy to see 
any administrative interference in that area.
    I hope this is the first of many hearings between our 
committee and you all on how we can improve our communication 
system in the Nation and make it as efficient as humanly 
possible.
    And for my friend, who must have left, Mr. Markey, I would 
suggest that perhaps for telephone chargers we need a public 
option so that people can go somewhere and buy from the 
government a single charger that will charge all of their 
telephones.
    With that, Mr. Chairman, I yield back the balance of my 
time and thank you for this hearing.
    Mr. Boucher. Thank you very much, Mr. Shadegg. The 
gentleman from Vermont, Mr. Welch, is recognized for 2 minutes.
    Mr. Welch. Thank you very much. You know, I am thinking 
about what Mr. Stearns said. This committee shares a concern on 
a bipartisan basis to try to move the economy ahead, and 
telecommunications and all of the work that the Commission is 
doing is an oasis of progress, actually. So it is incredibly 
important for each and every one of us in our districts that we 
have the best possible telecommunications policy. I welcome the 
new members who have been recently appointed to the Commission, 
and I introduced myself as a new member of the committee. And 
what is tremendous is, I think, we have got terrific people on 
this committee who share your common goal to work together, 
because if we are going to build a national economy and 
strengthen it, we are going to have to have absolutely the best 
telecommunications policy in the world. So I wish you good 
luck, and I will enjoy working with you for the betterment of 
the economy here in the country. Thank you.
    Mr. Boucher. Thank you, Mr. Welch. The gentleman from 
Oregon, Mr. Walden, is recognized for 2 minutes.
    Mr. Walden. Thank you, Mr. Chairman. I am going to waive my 
opening statement in lieu of extra time. I do want to welcome 
the commissioners.
    Mr. Boucher. Thank you very much, Mr. Walden. The gentleman 
from Nebraska, Mr. Terry.
    Mr. Terry. Welcome. Waive.
    Mr. Boucher. Thank you, Mr. Terry. The most concise 
statement made so far. The gentlelady from Florida, Ms. Castor, 
is recognized for 2 minutes.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Well, thank you very much, Chairman Boucher. 
And welcome to Chairman Genachowski and all three members of 
the FCC. I look forward to your testimony today.
    The technological innovation of just the past few years has 
been truly remarkable. And even last year's Presidential 
campaign made unprecedented use of social networks, distributed 
phone banking, and an unmatched grasp of limitless 
possibilities of information technology. And it is my sincere 
hope and belief that the coming years will truly foster 
American ingenuity and expand America's leadership in 
information technology. And over the past couple of months we 
have had an opportunity already to see how this new Commission 
is working since your confirmation, Chairman Genachowski. You 
have already begun aggressively preparing to complete the 
national broadband plan that Congress has asked for, and I have 
been encouraged by the speed with which you have acted to 
engage stakeholders in public hearings. And I understand later 
today the FCC is holding a public hearing on spectrum. I 
coauthored the Radio Spectrum Inventory Act that was introduced 
by Chairman Boucher and Ranking Member Stearns this summer, so 
I applaud you for that.
    The FCC has a very full plate with issues like the spectrum 
and the broadband plan, the DBLOCK, and your work on wireless 
competition and transparency for consumers all require very 
serious decisions to be made, and I commend the Commission for 
its work so far. As you settle into your jobs, we are all 
intently interested in your plans and outlook. So I look 
forward to your testimony. Thank you very much.
    Mr. Boucher. Thank you, Ms. Castor. The gentlelady from 
California, Ms. Eshoo, is recognized for 2 minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman. Welcome. The full FCC. 
This is great. I am very excited.
    Chairman Genachowski, welcome. We are very proud that you 
are going to be leading the Commission.
    To the two Commissioners that are the mainstays from the 
previous Commission, we thank you and salute you.
    And certainly to Commissioner Copps, I think that you have 
just been a force of nature in terms of what you have done and 
what you went out all over the country to speak to the public 
interest, and for your magnificent work as the acting director. 
Thank you to you. We are all grateful to you and very, very 
proud of you.
    Commissioner McDowell, it is always a pleasure and a 
privilege to work with you.
    And to the two new commissioners, two women on the 
Commission, how proud we are of you. And what you bring to the 
Commission is nothing short of extraordinary.
    I think, putting all of that together, we have the 
opportunity to have a Commission that really is going to be a 
21st century Commission, and we need to seize the opportunities 
and really shape our collective destiny when it comes to 
telecommunications, and there are so many opportunities to do 
that. So we all want to work with you in order to accomplish 
that.
    I think that the FCC needs to be able to anticipate change, 
understand and identify the changes that are going to define us 
as a country. We need to complete rulemakings in a timely 
manner that keep abreast of industry dynamics. I think the FCC 
needs the structure and the financing to accomplish these 
goals. And you need to tell us how you think and what you need 
in order to make this happen.
    I think that you are all aware of what my guiding 
principles are behind my concerns about Commission policies. I 
want to see a competitive environment that encourages 
innovation and business development, not a world where big fish 
eat little fish. I am tired of that, most frankly, and I don't 
think it has gotten us very far. I want to know how you plan to 
nurture a healthy competitive environment. I think that you 
know that Congressman Markey and myself have introduced net 
neutrality legislation that will bring about a free and 
unfettered access to the Internet. A free net might as well not 
be a net at all if people can't receive broadband. I think it 
is as simple as that. So I actively support modern broadband 
standards that will guarantee equal access for this really 
highly essential resource for everyone in our country. And we 
need high speeds that rank with worldwide standards. We 
shouldn't be starting with the slowest and then working our way 
up. It will be the 22nd century, and there will be a longer 
list of countries that are ahead of us.
    So welcome to the new commissioners. Thank you to the two 
that have really held down the fort. And to Chairman 
Genachowski, to each one of you, I genuinely look forward to 
working with you to accomplish what needs to be accomplished 
for our country. Thank you.
    Mr. Boucher. Thank you very much, Ms. Eshoo. The gentleman 
from North Carolina, Mr. Butterfield, is recognized for 2 
minutes.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman. I too 
would like to thank all five of the commissioners for coming 
forward today to have this conversation with us. I look forward 
to working with each one of you. Today, I am looking forward to 
hearing about the progress of the national broadband plan that 
Congress required as part of the Recovery Act. It is my hope 
that the plan will be sufficient to ensure that areas with 
little or no access to the crucial service be given priority.
    Many of the communities that I represent are without very 
basic access to broadband and are decades behind better 
connected areas of our country. The global economy demands 
access to broadband, and I stand ready to assist each one of 
you in expanding broadband access to underserved and unserved 
areas. We had a great debate in this committee about the 
definition of those two terms, and so we have delegated it to 
you and hopefully we will get a commonsense approach to this 
issue.
    I also have a keen interest in the DTV transition. The 
transition has been largely successful and has freed up 
valuable bandwidth that will be used by first responders to 
better communicate with one another. However, many of my 
constituents in North Carolina have been adversely affected by 
the transition. They are unable to access very basic television 
programming using an over-the-air signal. Prior to the 
transition date, I wrote to the Commission to make them aware 
of the potential for a complete loss of service to certain 
households that receive their television signals over the air, 
but unfortunately nothing was done to mitigate the signal loss. 
The affected households require new high-powered antenna to 
receive the digital signal. For many families in my district, a 
new antenna costing several hundred dollars was not a viable 
option.
    On June 11, I introduced the DTV Transition Assistance Act. 
The bill would utilize remaining money from the converter box 
coupon program to establish a television antenna coupon program 
to be used by those households that lost their signals due to 
the transition.
    There are many other issues that I hope to discuss with the 
Commissioners as time goes on, including net neutrality and the 
other issues that we have heard mentioned today. Again, thank 
you for coming. I look forward to coming with you. I yield 
back.
    Mr. Boucher. Thank you.
    The gentleman from Illinois, Mr. Rush, is recognized for 2 
minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Thank you Mr. Chairman. In biblical scripture, 
there is a phrase that says that weeping we may endure for a 
night, but joy comes in the morning. And as I look out at the 
many FCC commissioners, my heart is jumping for joy because we 
have endured 4 years of the midnight, or 8 years of the 
midnight, and now you are in a position to enjoy it as a new 
day and a dawning of the new era at the FCC. And I certainly 
want to commend you, each and every one of you. I think that 
you are very capable of leading this charge, and my friend, 
Commissioner Copps, I know that you feel vindicated in that you 
have been like a lone soldier there at the FCC fighting for 
those issues that are a vital concern to the American people.
    Broadband is a key factor when one attempts to maintain or 
improve one's condition of lifestyle today. Broadband, as you 
know, is fundamental to information gathering and sharing with 
American people. Its economic importance should be obvious. It 
literally is the difference maker in the future of many of the 
families in our Nation. And that is why I consider your 
broadband plan, the directors at this Congress has given FCC, I 
consider that just second only to American's pursuits of a 
national health plan in terms of the impact on the American 
people.
    I want to also just highlight one particular area that I am 
vitally concerned with, and that is the diversity of media 
ownership. Commissioner Copps, you and I have had discussions 
on that, and I think that is the--that would be the acid test 
for definition that we do indeed have a new day when we can 
address the issue of diversity of ownership among the media.
    And at some point in time if we have not in this 
discussion, I want to address the issue of the Verizon-AT&T 
debacle, as I would term that, that really squandered an 
opportunity where there could be the diverse ownership, 
particularly as it relates to minorities in that particular 
sales. So that would be the test decision or the test gauge 
that I would look at in determining how the FCC squandered an 
opportunity to move this Nation forward and to have a fairness 
in terms media ownership.
    Mr. Boucher. The gentleman from Ohio, Mr. Space, is 
recognized for 2 minutes.

OPENING STATEMENT OF HON. ZACHARY T. SPACE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Space. I very much appreciate the time of our 
witnesses, the distinguished chairman, and commissioners of the 
FCC. Thank you for joining us.
    The topics of today's hearing are many, but I wish to focus 
on the commission's work on the National Broadband Plan.
    As we all know, the American Recovery and Reinvestment Act 
states that the FCC shall develop plans to make sure all 
Americans have access to broadband. That is something that I 
care deeply about as a representative of an area of rural 
Appalachian Ohio, in which many thousands of my constituents 
lack access to both broadband and the tremendous benefits that 
can be derived from it, be they of an economic nature or 
quality of life nature such as health care and educational 
opportunities that we are missing out on it now because we 
don't have anything close to universal access to broadband.
    Last Congress, I introduced the Connect the Nation Act to 
provide grants to public/private partnerships selected by 
States to work on deploying broadband technology. Early this 
year, I pushed House leadership to include funds for broadband 
in the Recovery Act. In the spring, I worked with countless 
stakeholders in and around my district to develop am ambitious 
connecting Appalachian plan to provide broadband access to 34 
counties in Ohio. Then following a release on GAO report on 
actions undertaken by the Federal Government to encourage 
broadband employment, I joined Chairman Waxman and Chairman 
Boucher and then-acting Chairman Copps to highlight the areas 
of interest, including the findings regarding the remaining 
gaps in broadband coverage in rural areas.
    I say all of this not to highlight my own personal 
accomplishments, but to point out that Ohio 18 is the face of 
the remaining need in this country, and we are also an example 
of a way forward. The decent hardworking men and women of rural 
Ohio cannot wait any longer for resolution of what Chairman 
Genachowski calls our generation's major infrastructure 
challenge and access to what Commissioner Copps describes as 
our country's greatest enabler.
    Commissioners, I challenge you to implement a national 
broadband plan that serves those with the greatest needs, and I 
stand ready to work with you to accomplish this. In Ohio, we 
are ready to work to get this done.
    Mr. Boucher. The gentleman from Washington State, Mr. 
Inslee is recognized for 2 minutes.
    Mr. Inslee. Thank you. I just look forward to this 
discussion. I am really impressed with some of the things the 
Commission is doing and look forward to discussion about our 
interrelated issues of wide spaces and unlicensed spectrum and 
how we moved the action process forward. I think we have more 
to do. We've got some progress but we have been waiting 5 years 
to complete our wide spaces issue, and I look forward to your 
comments on how we can move forward on these issues.
    Mr. Boucher. The gentleman from New York, Mr. Weiner is 
recognized
    Mr. Weiner. I, too, want to welcome the commissioners. I 
think we are all pulling for you. I know that we've gone 
through a period on the commission that was perhaps more 
contentious than it needed to be, and I think that having 
spoken to just about all of you I see that we all want to get 
past those things.
    I want to particularly welcome the new chairman who I think 
comes to the job with perhaps a collection of experiences and a 
background that makes him more equipped than perhaps any other 
chairs, someone who is innovative in the private sector, 
someone who has worked here on Capitol Hill with a close 
relationship with the President and someone who had his name 
mispronounced seven times in the Senate confirmation hearings. 
I want to thank the chairman for his service, and I look 
forward to tackling some of the issues that this subcommittee 
faces, but welcome to you all.
    Mr. Boucher. The gentleman from Pennsylvania, Mr. Doyle, is 
recognized for 2 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman. Good morning and 
welcome to the Commission. First, let me also thank 
Commissioner Copps for his outstanding service as interim 
chairman of the Commission and someone that I've certainly been 
pleased with to work with over the years.
    And I also want to commend Commissioner Baker for her work 
at NCIA and to our new commissioner, welcome. We are happy to 
see you on board.
    I want to associate myself with comments from Chairman 
Waxman and Boucher and former Chairman Markey on the critical 
importance on broadband and their use on wireless competition.
    I heard Mr. Markey's story about cell phone chargers and 
you know the EU brought together all of the device makers and 
regulators and worked with the industry to solve this consumer 
complaint. They settled on a micro USB standard. I would hope 
that American carriers and device makers would follow that 
policy, and we don't need to wait for the FCC to force some 
action to address this consumer complaint.
    I want to tell you I was delighted when the FCC came to 
Pittsburgh in 2007 to discuss and learn more about the future 
of broadband. I think we all learn more when we leave 
Washington, D.C. and get out in the field and talk to real 
people. And Chairman Genachowski, I would like to encourage 
your staff and those working on the broadband plan to review 
the record of the Pittsburgh field hearing. Several witnesses 
who gave real-world experience at broadband adoption in low-
income urban communities and how innovators are limited from 
using SMX text messaging to reach young people, and how people 
get left further behind when they are not connected to a 
critical network like the Internet.
    I've also noted that the FCC has hired a lot of people from 
inside and outside the Beltway. They've picked a lot of folks 
with practical real-word experience, they've been able to 
attract many people with important background in the private 
and public sector. I think that is a good thing. A number of 
them have testified before our subcommittee on communications 
and technology issues. I don't always agree with everything 
that they've testified to us, but I respect their intelligence, 
I admire their commitment in seeking facts and data that 
support their views, and I recognize that they are serving in 
advisory positions.
    When it comes down to it, when decisions are made, the 
people who matter are the people who are sitting in front of us 
today, the chairman and the commissioners. That is who we 
should be talking to.
    And I look forward, Mr. Chairman, during the question-and-
answer period, to have some questions for our new commissioner.
    Mr. Boucher. You have now heard from us, and we look 
forward to hearing from you.
    And we are very fortunate to have before us this morning--
and thank you for your attendance--the five members of the 
Federal Communications Commission.
    Without objections, your prepared written statements will 
be made a part of our record. We would welcome your oral 
summaries and would ask that you keep those within a reasonable 
time frame so that we have time remaining to pose questions to 
you.


      STATEMENTS OF JULIUS GENACHOWSKI, CHAIRMAN, FEDERAL 
COMMUNICATIONS COMMISSION; MICHAEL COPPS, COMMISSIONER, FEDERAL 
   COMMUNICATIONS COMMISSION; ROBERT McDOWELL, COMMISSIONER, 
      FEDERAL COMMUNICATIONS COMMISSION; MIGNON CLYBURN, 
 COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION; AND MEREDITH 
 ATTWELL BAKER, COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Boucher. And we will be pleased to begin this morning 
welcoming the new chairman of the Federal Communications 
Commission, Mr. Julius Genachowski, and we would be very 
pleased to have your statement at this time.


                STATEMENT OF JULIUS GENACHOWSKI

    Mr. Genachowski. Thank you, Mr. Chairman, Ranking Member 
Stearns, members of the subcommittee. It's a particular 
pleasure for me to be here in the House of Representatives 
where 25 years ago, I started my career when a young 
congressman took a chance on someone fresh out of college. It 
is a privilege now to be chairing the Commission and to work 
with such an exceptional team of commissioners. I have the 
highest regard for each of my colleagues, Commissioner Copps, 
Commissioner McDowell, Commissioner Clyburn and Commissioner 
Baker.
    I believe that some of the members have recognized the 
public owes a debt of gratitude to Commissioner Copps, then-
acting chairman and Commissioner McDowell for their excellent 
work for the DTV transition.
    While as we've heard issues remain, more work needs to be 
done. There is no question that the FCC's role to date has been 
a success. Both Commissioner Clyburn and Commissioner Baker 
bring first-rate experience to the FCC and track records of 
real accomplishment. It is wonderful to have a full team up and 
running at the FCC. I am confident that together we can make 
the FCC an agency that works for all Americans.
    While I arrived at the FCC only a couple of months ago, I 
tried to hit the ground running seeking to revitalize and 
retool the agency. I've begun by articulating strategic 
principles that include fostering investment and innovation, 
promoting competition, protecting and empowering consumers 
children and families. These principles require work in a 
number of important areas: Developing a national broadband 
strategy; unleashing spectrums so the U.S. can lead the world 
in mobile; helping deliver state of the art public safety 
communications networks for our country; promoting a vibrant 
media landscape in the 21st century that serves the public; and 
reforming the FCC itself so that it can become a model for 
excellence in government
    I have detailed in my written remarks on these topics. Let 
me summarize them here. First, the national broadband plan. We 
have been working hard on broadband, which I believe is our 
generation's major infrastructure challenge. Robust, open, 
affordable broadband can be our platform for sustainable 
economic growth and opportunity for all Americans. In April, 
under then-acting Chairman Copps leadership, the Commission 
began the efforts to develop the national broadband plan 
mandated by Congress.
    In July as part of my first Commission meeting, we heard a 
work plan for meeting our February deadline, which is coming up 
very quickly. In developing the national broadband plan, the 
FCC is conducting a data driven process with unparalleled 
opportunity for public participation through public workshops, 
requests for comments on concrete questions, the use of new 
media and technology, including a Web site, broadband.gov, a 
new blog, Blogband, Idea Scale and other platforms for public 
participation.
    We are at the very early stages of this work but thousands 
of Americans have already connected to the FCC, learning about 
the Commission's work and offering real and substantive 
comments which we are incorporating into the record. We are 
using these and other tools to reach out beyond the Beltway to 
all Americans, individuals and businesses, because all 
Americans are stakeholders in the broadband plan.
    Second, the Commission, in August approved issues of 
notices of inquiry that addressed the key topics of innovation, 
investment, competition and consumers.
    Our wireless innovation and investment notice of inquiry 
focuses on the Commission's particular responsibility for 
managing spectrum, a unique and scarce national resource. It 
recognizes the vital importance of innovators and entrepreneurs 
to the work of the FCC and seeks input and ideas for how the 
FCC can best maximize investment and innovation in the mobile 
industry. It asks is there anything the Commission should do 
that it is not doing to promote investment and innovation? Is 
there anything that the Commission is doing that it shouldn't 
do where that would better promote innovation and investment?
    The goal of the wireless competition of inquiry, which we 
also approved, is to build a solid analytic foundation for 
predictable fact-based competition policy in the wireless 
sector. And the goal of the consumer information and disclosure 
NOI that we approved last month is to allow the Commission to 
assess whether consumers have adequate information to make 
informed buying decisions.
    These notices reflect the importance of mobile. There's 
been strong innovation in the wireless sector. That is the good 
news. I believe the U.S. has the opportunity to lead the world 
in mobile. I believe we also have some real challenges in this 
space including those mentioned by some members of the 
committee were facing a real demand crunch when it comes to 
spectrum.
    I would like to next take this opportunity to reconfirm my 
strong commitment to public safety. Public safety 
interoperability is a vitally important issue for the 
Commission and the Commission staff is actively evaluating 
proposals addressing mission critical voice communications and 
broadband capability for our Nation's first responders.
    My first day on the job, I requested a top-to-bottom review 
on the Agency's state of readiness for major public 
emergencies. Admiral Jamie Barnett, our new leader of our 
Public Safety and Homeland Security bureau, led that review. We 
released the results of the review on September 8th and they 
are summarized in my written statement. The bottom line, the 
review confirms that the FCC stands ready to respond to 
communication emergencies, but the report also reminds us that 
the agency must continuously strive to maximize its readiness 
to ensure that it is prepared to meet its vital mission in the 
digital age and to work toward helping our country's first 
responders deploy 21st century technologies in support of their 
operational requirements.
    Along with starting work in our strategic priorities, we 
are also working toward the FCC becoming a model for excellence 
in government. One of my first acts was to appoint a 
universally respected senior staffer, a special counsel for FCC 
reform. She is working alongside our new managing director, who 
has 15 years of very relevant experience in the private sector, 
our new general counsel, and our director of strategic planning 
on FCC reform. They are looking at all ideas to improve the 
operations and processes of the FCC to achieve the goal that I 
have laid out: having the FCC become a model for excellence in 
government, a model information agency for the communications 
age.
    Our form agenda is extensive. Highlights include a careful 
review of FCC properties and examination of the Commission's 
data collections, analysis, and dissemination, licensing 
comment and complaint filing systems. Modernizing our 
information infrastructure, and our financial operations.
    Now, I will say that I have learned a few things during my 
brief tenure so far as chairman. For one, repeating 
relentlessly is sometimes necessary. Many have asked, and I 
state again, I do not support reinstatement of the fairness 
doctrine either through the front door or the back door. I 
believe deeply in the first amendment, and oppose any effort to 
censor speech based on the political viewpoint or opinion.
    Now finally, while I have not had the opportunity to meet 
individually with all of the members of the committee yet, I 
hope to do so. I have had the privilege to meet with many of 
you. Those conversations and those meetings have been 
constructive. I was happy to hear Mr. Shimkus mention our 
action on kids.gov; from Congressman Terry, we learned about 
Blue Valley Meats, a terrific business in Nebraska that 
developed a--that used broadband to better distribute to grow 
its business. It is a great example of small business using 
broadband to grow, create jobs all over the country. And we 
reached out to Blue Valley Meats in connection with our 
broadband process.
    Congressman Walden, when I met with him suggested that we 
do something that I thought was a great idea, that we get our 
media bureau staff and sit down with broadcast engineers and 
see what kind of ideas we can generate to better improve the 
processes of the FCC. That has happened, and it is resulting in 
some concrete actions.
    I spent time with Congresswoman Eshoo at a hospital in Palo 
Alto where we saw some of what broadband can offer, an 
incredible use of technology, imaging technology, broadband 
around remote diagnostics that allow for diagnosing of newborns 
with a disease that causes blindness in a way that when you 
see, you think this needs to be available to all Americans. It 
is available in Palo Alto; it should be available everywhere. 
Those are the kinds of things we are thinking about in 
connection with our broadband plan.
    Let me stop there. These are but a few of the examples. I 
look forward to having more conversations with each of you in 
the months ahead and concrete actionable ideas that we can 
implement in the FCC.
    You can be assured that my goal for the FCC is to be a 
resource to this committee, to be open, fair, responsive; and 
as I said, to have the FCC be a model for excellence in 
government.
    Thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    Mr. Boucher. Thank you very much.
    [The prepared statement of Mr. Genachowski 
follows:]******** INSERT 2-1 ********
    Mr. Boucher. Commissioner Copps.


                   STATEMENT OF MICHAEL COPPS

    Mr. Copps. Chairman Boucher, Ranking Member Stearns, 
members of the subcommittee.
    Let me first express my very real gratitude for your 
incredibly generous statements today and more specifically, for 
your support and guidance, particularly during those 5 months-
plus that I was privileged to serve as the Commission's acting 
chairman earlier this year. Those were just incredibly busy and 
eventful months dealing with the first and foremost with the 
DTV transition, and also launching a truly historic proceeding 
growing out of the mandate from Congress for the Commission to 
develop a national broadband plan.
    I am pleased that we were able to navigate through this 
period, and I am incredibly optimistic about the future of our 
new Commission. Chairman Genachowski brings tremendous 
intellect, experience and commitment to his job, and he is off 
to a fine start. In addition, I tremendously value my 
relationship with my good friend and colleague, Commissioner 
Rob McDowell, who made a world of difference in the success of 
our DTV program during those months while I was acting chair--
fellow commissioners Mignon Clyburn and Meredith Baker and how 
on board each are with very valuable and relevant experiences 
and talents. So I believe we are positioned for major progress.
    I also want to thank my friend and former colleague, 
Jonathan Adelstein, for his tremendous service as commissioner 
for nearly 7 years. It seems strange not having him sitting 
here right beside me this morning. I think Commissioner 
McDowell has termed us the Three Amigos. Hopefully we are 
already on the way to becoming the five amigos of the 
Commission. I know Jonathan will serve the public interests 
superbly of the new administrator of World Utility Service.
    My biggest thanks of all go to the FCC team. I have for 8 
years admired their skill, their professionalism, and 
dedication; but seeing it up close as acting chairman, seeing, 
for example, volunteers leaving their families to go across the 
country to help other families get ready for the DTV transition 
or working nights and weekends to get other items ready for 
consideration gave me a new appreciation for what public 
service means and what public service is. And giving them the 
room they need to accomplish their tasks is one of the things 
that I tried really hard to do as acting chair.
    For me, our current involvement in broadband is a dream 
come true. For 8 years, I advocated everywhere I could for a 
national broadband strategy to get this essential 
infrastructure out to all our citizens. I see broadband as our 
country's great enabler. It is part of the answer to just about 
every challenge we confront as a Nation: lost jobs, shortfalls 
in education, energy dependence, environmental degradation, 
inadequate health care delivery, and the list goes on. This is 
the 21st century's great infrastructure challenge, comparable 
to the challenges earlier generations confronted to build 
enabling infrastructure like turnpikes and roads and bridges, 
canals, highways, rural electricity, and then even telephone 
service.
    Now it is broadband's turn to help build renewed prosperity 
by opening the doors of opportunity for all Americans, no 
matter who they are, no matter where they live, no matter what 
the particular circumstances are of their individual lives. 
Enable broadband, and we enable the citizens of this great 
country.
    Just as sweet music to my years was the designation of the 
FCC to be the epicenter for the development of this plan. I am 
pleased that the Commission was able to launch a comprehensive 
broadband notice of inquiry this past April, and I am greatly 
encouraged by Chairman Genachowski's commitment to an open and 
transparent and data-driven broadband process, really 
unprecedented in the history of the Commission. And that is 
exactly this kind of outreach and openness that we need in 
everything we do.
    So I hope and I believe that that broadband proceeding will 
serve as a model for future proceedings in the way we achieve 
maximum civic engagement with traditional and nontraditional 
stakeholders alike. That is the way we should do business all 
the time.
    There is much more to be done on top of broadband. While 
the bulk of the DTV transition is behind us, there is still 
work to be done. With consumers and stations alike, we are 
doing that work. The additional time and resources provided by 
Congress made a world of difference in reducing the number of 
problems we would otherwise have encountered, and the private 
sector/public sector cooperation that we were able to develop 
here showed how productively the sectors can work together, and 
it is absolutely essential as we look now to develop a 
broadband plan to build a partnership. That is how we grew this 
country of ours and built it.
    Lastly, I come back to, as I always do, to the country's 
media environment. Now is the time to pay it serious attention. 
We have relied, for example, so heavily on our broadcast media 
for so much of the news we must have for emergency and public 
safety information, for public affairs programming essential to 
our civic dialogue, and for programming that supports the 
health and welfare of our children that reflects the social and 
cultural diversity that comprises the great tapestry that is 
the United States of America. We have not been, in my mind, 
sufficiently attentive to this.
    Now, with all of the new digital TV capacity at our 
disposal, broadcasting's capacity to develop such processing is 
orders of magnitude larger than it used to be. Stations can now 
broadcast four or five or even more program streams using the 
same amount of spectrum they used to transmit just one stream 
in analogue. What an opportunity for broadcasters whose 
strength is local to develop programs reflecting local issues, 
cultures, sports, and all of the rest. Too few of them are 
taking advantage of the capacity. Times are tough. We all know 
that. But recovery will come. Broadcasting does need to play to 
its strengths and its future can be truly bright, and I am 
convinced that its future is bright.
    Our country is also awakening to the realization that there 
is a crisis in journalism regardless of the means of 
distribution: broadcast, newspaper, cable, the Internet. News 
gathering and news dissemination expenses are being cut to the 
bone. Investigative journalism is too often falling by the 
wayside, and these constraints are endangering, I believe, the 
vibrancy of the civic dialogue on which our democracy depends.
    New media is developing, more will come, but traditional 
media persists. We can't focus on one and neglect the other 
because we need solutions in both areas now.
    Recently the legendary Walter Cronkite died. One of my good 
fortunes after I came to the Commission was to get to know this 
good and wise man, and we had numerous discussions about the 
deepening crisis in journalism and the urgent need to tackle 
this program. As he once said, America is the most prosperous 
and powerful nation in perhaps the history of the world. We can 
certainly afford to sustain a media system of which we can be 
proud. I look forward to working with the subcommittee on this 
issue as well.
    Thank you again for inviting us here. This is, I think, 
perhaps the most exciting time of history to be a member of 
this Commission. I am enthused. And I look forward to your 
comments and your counsel and your questions. Thank you very 
much.
    Mr. Boucher. Thank you very much, Mr. Copps.
    [The prepared statement of Mr. Copps follows:]******** 
INSERT 2-2 ********
    Mr. Boucher. Mr. McDowell.


                  STATEMENT OF ROBERT McDOWELL

    Mr. McDowell. Thank you, Mr. Chairman and Ranking Member 
Stearns and members of the committee. It is a privilege to be 
here before you today.
    The FCC is an agency with new energy and new blood, and I 
am honored to be serving there for another term. I look forward 
to working with my new colleagues, Julius Genachowski, Mignon 
Clyburn and Meredith Baker, as well as my veteran amigo, Mike 
Copps. With these new commissioners and new leadership, we have 
a perfect opportunity to rebuild the FCC as we address the 
myriad communications and economic policy challenges facing 
America.
    For some time now I have been calling for reform of the 
Commission's structures and processes to help spark discussions 
and progress. I wrote open letters outlining reform ideas to 
both acting Chairman Copps in January and Chairman Genachowski 
in July. And one of my letters is part of my written statement 
in the record.
    First and foremost, the FCC should be a more open and 
collaborative place where all commissioners are included in the 
idea formulation process early on and not just 21 days before a 
voting deadline.
    Both acting Chairman Copps and Chairman Genachowski have 
taken significant steps to enhance information flow and improve 
employee morale, and they should be commended for their 
efforts. A tremendous amount of FCC work remains to be done, 
however. I look forward to working with all of the stakeholders 
on this important endeavor, especially members of this 
subcommittee and the full committee.
    As we move forward, I cannot think of a more important time 
to be at the FCC. Even though the American economy has been 
shrinking overall, our communications marketplace is vibrant, 
evolving, and growing. Consumers have more choices among more 
communications technologies, services, and providers than ever 
before. For instance, 157 million Americans watched more than 
21 billion online videos during the month of July alone--a 
figure that is growing at a double-digit rate each month. 
Consumers are watching those videos on an increasing number of 
platforms as well, most notably wireless platforms.
    Three years ago, the discussion of a wireless-only 
marketplace was just beginning. Today, nearly one in five 
American households is wireless only. In fact, I like to point 
out that my wire line legal adviser, Nick Alexander, his 
household is wireless only. I think that speaks volumes. And 
the majority of American consumers also have the choice of five 
wireless carriers.
    At the same time, 23 percent of all businesses are expected 
to be wireless only by the year 2012. America's wireless 
broadband market is leading the world by growing more than 400 
percent over the past 3 years. Additionally, America has the 
fastest growing fiber to the home market in the world with an 
annual growth rate of over 120 percent. Five years ago, less 
than one percent of American homes had access to fiber; today 
that figure stands at 13 percent.
    Since the year 2000, the number of high-speed lines in 
America has increased more than 1,900 percent for approximately 
6.8 million connections at the end of the year 2000 to almost 
133 million lines nearly 9 years later.
    To grow that number further, America's businesses will 
spend up to $80 billion on new broadband infrastructure this 
year alone. And I know that this is a terrible year to be 
investing in capital expenditures.
    Certainly our communications marketplace is far from 
perfect and more must be done. As we prepare our 
congressionally mandated national broadband plan however, we 
should not just examine our shortcomings, but we should learn 
from what we have done right as well.
    The information and communications technology sector is 
poised to lead our country out of the recession and into an era 
of sustained economic prosperity. Higher paying jobs and untold 
consumer benefits if the government does not adopt policies 
that inhibit economic freedom and investment.
    America's year-over-year private sector investments in 
broadband dwarf any government broadband efforts throughout the 
globe. In recent years, the Commission has promised that new 
broadband technologies would come to fruition as a result of 
our actions to put into the hands of consumers the power of 
previously unavailable spectrums, such as the 700 megahertz 
band. Market players, both large and small, will need even more 
capital to build out the infrastructure needed to make that 
promise a reality.
    With this fact in mind, whatever policies we adopt should 
help attract more private sector capital and not deter it. As 
the broadband plan takes shape, it is my hope that the plan 
will not take a heavy-handed, top-down command and control 
industrial approach. Instead, I hope it will be imaginative, 
pragmatic, flexible and the next step in an open process that 
will make helping unserved America its top priority.
    Our policies should encourage abundance and competition to 
give consumers more choices, life-changing innovations, and 
lower prices all while obviating the need for innovation and 
rationing. If we are truly committed to being data driven and 
avoid cherry-picking data to justify a predetermined outcome, 
we can produce a useful template to produce a constructive 
public policy.
    In addition to reform and the broadband plan, the 
Commission faces a number of other challenges. We are 
confronted with a skyrocketing universal service cost structure 
that is unsustainable. More than 1.3 million broadcast 
indecency complaints, some of which literally are older than my 
children, lie ossifying at our agency.
    The Communications Act requires us to review our rules 
governing media ownership next year, and during that review, we 
must be faithful to the first amendment and defend the freedom 
of speech.
    We still have work to do to ensure technologies that 
operate any unused television white spaces can come to market 
and into the hands of consumers as quickly as possible. 
Likewise, we must work with Congress to devise a solution for 
resolving the communication challenges faced by our Nation's 
emergency response providers and the list goes on.
    But in conclusion, America's ICT sector is at a critical 
juncture. Our technological and economic future could be 
brilliant if we, as policymakers, have the courage to make the 
right choices.
    I look forward to working with Chairman Genachowski and my 
colleagues on important policies that will encourage job-
creating investment, empower consumers, and make America 
stronger and more competitive.
    Thank you, Mr. Chairman.
    Mr. Boucher. Thank you, Mr. McDowell.
    [The prepared statement of Mr. McDowell follows]******** 
INSERT 2-3 ********
    Mr. Boucher. Ms. Clyburn.


                  STATEMENT OF MIGNON CLYBURN

    Ms. Clyburn. Mr. Chairman, members of the subcommittee. 
Good morning. It is an honor and a privilege to appear before 
you today alongside my esteemed colleagues to discuss our work 
at the Commission.
    As an agency responsible for regulating the 
telecommunications industry, the FCC has an important role to 
play in our Nation's economic recovery and sustained health. 
From what I have witnessed in my short time at the Commission, 
I can assure you that we are an agency fully committed to the 
task at hand.
    My colleagues have already touched on a number of matters 
facing the Commission. I would like to highlight a few issues 
that will be priorities for me.
    First, I strongly believe that we must refocus this agency 
on consumers. We must be vigilant in asking ourselves how our 
decisions impact the marketplace. Where the market is working 
effectively and consumers are reaping benefits, we can take a 
step back and watch it flourish. Where the market is failing, 
however our responsibility is to craft reasonable and 
appropriate measures to get it back on track.
    Our new inquiry concerning the information disclosed to 
consumers when they purchased telecom equipment and services 
reflects the FCC focus on consumers. There is no more essential 
component and purchasing processing than clear, accurate, and 
useful information. Without it, consumers enter into contracts 
they never anticipated, pay for services they never sought, and 
spend for more than they should for services they received. 
When this happens, the market has failed and a closer look is 
warranted.
    As part of redoubling our consumers' efforts, I believe we 
must also increase our accessibility in transparency to the 
public. By fostering greater participation and awareness, we 
undoubtedly will yield superior results. This means making the 
Commission far more accessible to the general public through 
our Web site and other new media tools as well as finding 
innovative ways to open our doors beyond the Beltway.
    I want to also touch on the national broadband plan. While 
much of to focus over the next several months inevitably will 
be on the core elements of broadband deployment and adoption, 
the plan must also account for national priorities beyond the 
traditional communications round.
    Two such areas about which the members of this committee 
are intimately familiar are energy and health care.
    When it comes to thinking about the intersection between 
broadband and energy policy, the conversation begins with a 
smart grid. If we take seriously the notions of energy 
independence and reduce greenhouse gas emissions, we must 
develop a grid capable of accommodating renewable power as a 
significant portion of our energy generation mix. Our broadband 
plan must account for the continued development and growth of 
this technology.
    Broadband policy also has the potential to transform the 
way health care is delivered in this country. In order to 
develop a useful plan that incorporates innovative mechanisms 
for providing quality health care, we must first understand the 
industry's infrastructure requirements, the current reasons for 
inadequate access and adoption, and ways in which we can 
facilitate effective and secure online access to medical 
records.
    In bringing these and other sectors of the economy into the 
fold, coordination among a variety of Federal agencies and 
State entities is paramount. I will do everything in my power 
to make sure that we continue to work effectively with all 
stakeholders
    The final issue I would like to address this morning is the 
state of minority ownership. I am pleased that our chairman has 
already indicated that this is an issue he would like to 
address early on. But before we even begin to find solutions 
for the lack of diversity in media ownership, we need to have 
an accurate diagnosis. And to do that, we need credible, 
reliable, and complete data. We don't have that now, and in my 
view, we need to get the ball rolling as soon as possible to 
come to terms with exactly why our broadcast industry is in the 
state we find it in today.
    I look forward to working with my follow commissioner, 
Chairman Genachowski, and the subcommittee as we develop the 
most effective telecommunications policies possible. The 
American people are relying on all of us to work cooperatively 
to ensure that they are being provided the widest array of 
services at the highest quality and the best prices.
    Thank you for the opportunity to appear before you today, 
and I look forward to answering your questions.
    Mr. Boucher. Thank you, Ms. Clyburn.
    [The prepared statement of Ms. Clyburn follows]******** 
INSERT 2-4 ********
    Mr. Boucher. Commissioner Baker.


                  STATEMENT OF MEREDITH BAKER

    Ms. Baker. Good morning Chairman Boucher, Ranking Member 
Stearns, and all of the very distinguished Members of this 
committee.
    It is really exciting to be here today, and I am very 
grateful for your kind words about my tenure at NGIA. I really 
hope to bring that experience to enhance all of our experience 
at the FCC.
    So during my first 6 weeks at the Commission, I have had 
the opportunity to meet the various bureaus and the offices, 
and I have been greatly impressed by the agency and the depth 
and the talent and dedication of the staff as we really face 
unprecedented challenges of the significant issues before us.
    Chairman Genachowski gave an inspirational speech to the 
FCC staff on his first day, and he stated that the promise of 
technology has never been brighter, and consequently, the 
obligations of the Commission have never been greater, and I 
share that view.
    The FCC holds the keys to unleashing the power of 
broadband, the new media landscape and true public safety 
operability. This responsibility is challenging, but the 
rewards will truly make a difference in the life and future of 
every American.
    According to one metric, the communications industry 
constitutes one-sixth of our economy and is the foundation upon 
which the rest of it runs. A 21st century communications 
infrastructure is essential for restoring sustained economic 
growth opportunity and prosperity.
    Congress has instructed the FCC to develop and implement a 
national broadband plan. This directive holds great promise for 
our Nation, and as you have heard, we are hard at work on it.
    Broadband has become critical infrastructure. The enabling 
technology from everything from the future of our children's 
education to the next generation of health care, smart energy 
grid development and, again, true public safety 
interoperability.
    The FCC will play a very important role in making sure that 
the right regulatory environment exists to create incentives 
for companies to build out this infrastructure faster to reward 
innovation and investment and to encourage competition so that 
American consumers have access to and can afford the world's 
most advanced telecommunications services. We are gathering the 
data to ensure that our recommendations are well informed.
    I believe that we can reap great benefits from a more 
efficient, transparent and flexible spectrum policy. The 
spectrum inventory bill introduced and cosponsored by so many 
of the members of this subcommittee shows important leadership 
and is the first step to increasing wireless broadband use in 
innovative ways such as secondary markets, leasing, and test 
beds.
    As many of you know me from my previous position at NTIA I 
think it is critical to pursue policies that foster the 
efficient use of spectrum to promote the continued innovation 
and investment in the wireless marketplace.
    We plan to take a hard look at the means and tools to 
maximize spectral efficiency and to optimizes the use of the 
country's bandwidth.
    I am pleased that the first vote I cast at the Commission 
was to see what else we can do to promote innovation in the 
wireless sector. Further, this afternoon we will have a 
broadband workshop on spectrum. And on Monday, I will host our 
first field hearing for the national broadband plan, a spectrum 
hearing in Austin, Texas. It is imperative that we lay the 
foundation for wireless, the fastest growing sector of 
America's broadband economy who's continued to flourish.
    During the past weeks I have had the pleasure of meeting 
with many of the members of this committee and it is a very 
talented and dedicated group. I want to thank you for taking 
the time out of your busy schedules to visit with me and share 
your thoughts on the communications policy and the future of 
the FCC. I have learned a great deal about your respective 
views and the range of issues that you face in your districts. 
I look forward to continuing our dialogue and to working 
together for the benefit of American consumers.
    The FCC has a profound impact on what the American people 
see, hear, and read. Healthy competition can benefit consumers, 
and, in many cases, can reduce the need for affirmative 
Commission action. However, the regulatory mandate of the FCC 
will remain an important one as our society continues to 
experience technological advancement in the communications 
sector. I take this responsibility very seriously while working 
to promote the principles of investment, innovation, and 
competition for the benefit of all Americans.
    In conclusion, it is a true honor to be serving at this 
time with my four colleagues sitting with me at the table and 
with the wealth of their experience and expertise. I, too, 
would like to add my voice to thanking acting Chairman Copps 
for reintroducing a collegial tone at the Commission which 
Chairman Genachowski has continued to build upon.
    I look forward to working with them and Commissioner 
McDowell and Clyburn and taking actions that will have 
extraordinary impact on the everyday lives of the American 
people.
    Thank you again for the opportunity to appear before you, 
and I look forward to answering your questions.
    [The prepared statement of Ms. Baker follows]******** 
INSERT 2-5 ********
    Mr. Boucher. Thank you very much.
    The subcommittee's thanks to each of our Commission members 
for your very thoughtfully prepared comments here this morning 
and for the time that you have taken to have this conversation 
with us.
    I want to begin by complimenting each of you on what I 
perceive to be an outstanding bipartisan dialogue among you and 
a determination to work effectively together in order to 
advance telecommunications policy. And my personal view is that 
is the way the best policy is made. And it is a practice that 
we continually intend to pursue here on this subcommittee as 
well.
    Chairman Genachowski, as you begin to draft your broadband 
plan, I want to draw your attention to two areas with regard to 
which I hope you will provide a particular focus.
    And the first of these is the need for extraordinarily high 
bandwidth extending to libraries and communities across the 
United States. Presumably, we would have fiber optic 
connections to every library in this country once your plan has 
been fully implemented. Libraries are an intellectual hub, they 
are a social hub in many communities across our country. They 
typically offer computers with broadband and free Internet 
access. And hundreds of people in a typical community will 
receive their free Internet access by virtue of that offering 
at the local public library.
    They also offer their own content through their Web sites, 
and many of those areas of content involve full-motion video 
which, of course, requires large bandwidth in order to deliver. 
And when you have a broadband line extending into a library, a 
very high capacity line, that line can be a jumping-off point 
for last mile applications for residents and businesses located 
between the library and the central switching office where that 
fiber connection terminates.
    So there are really a range of community benefits when they 
are advanced when we have truly high capacity broadband access 
extending into the public library. I hope you will have due 
regard for that as your plan is developed.
    I am going to ask for your comments on that one other issue 
related to broadband, and I will ask for your comments on both 
of these at one.
    As our colleague, Mr. Butterfield, indicated, you are going 
to be devising definitions for many unserved areas and 
underserved areas across the country. And I hope you will be 
extraordinarily careful, particularly in the definition of what 
is unserved. We have some experience with the existing 
Community Connect Program that is administered by the Rural 
Utility Service at the U.S. Department of Agriculture, and it 
is a very small program. It is effective where it is deployed, 
but it is very small and perhaps because of its small size, 
there is some necessity to be quite conservative in the 
definitions of the areas that will qualify.
    But one of their definitions is so conservative as to 
disqualify areas that, in my personal opinion, are really 
worthy of service. They define "unserved" as an area that has 
absolutely no broadband access to anyone in the community. So 
if a single resident of the community has broadbands extending 
into that extending into that home, the entire community is 
deemed to be served even though no one else in the community 
has access to broadband.
    That is an unusually, and I think, far too severe 
restriction. And I would hope that you would keep that example 
in mind as you are defining what "unserved" means.
    If there are parts of the community that lack broadband, 
those parts should be deemed to be unserved in whatever 
definition you craft.
    I want to comment on the notion of underserved also. In my 
view, if there is a single provider in a community and the 
benefit of competition is not provided in that community, that 
community should be deemed to be underserved. If the data rates 
are unusually slow in that community, if it is perhaps less 
than a megabit per second for a download speed, that, in my 
view, would be another indicia of that community being 
underserved.
    If you have competition and high data rates but prices are 
very high for whatever reason above the national average 
perhaps, that might be another indicia of a community that is 
underserved.
    And so I would offer those suggestions to you as you 
undertake these critical definitions in structuring your plan.
    And Chairman Genachowski, if you would like to take a few 
minutes to respond, I would be happy to hear your answer.
    Mr. Genachowski. The first thing I would tell you is that 
all of those thoughts will be taken into account as we develop 
the broadband strategy.
    The structure of our work, the way we have organized the 
staff, the workshops, the issues that we are jumping into 
follow from what is in the statute. We were asked in connection 
with the national broadband strategy to look at one, 
deployment; two, adoption and affordability; three, national 
purposes in the way that broadband can help address so many of 
our national problems, health care, education, energy, etc.
    As I have been in this job for a little while and as we 
have done the work on broadband, we realize that these issues 
are incredibly complex. When I met with Congressman Doyle--I 
don't know if he's here now--there are real issues in 
Pittsburgh that you wouldn't expect that, as I talked to 
Congressman Doyle, sound a lot like issues that I hear about I 
talk to rural members.
    The overriding goal of the national broadband strategy, as 
I understand it, is the goal of broadband access for all 
Americans. There are many challenges to address, many problems 
to solve, and the kinds of issues that you have raised up--some 
of which have come up in the context of the near term broadband 
grants--are issues that we must get our arms around with 
connection of the longer-term national broadband strategy.
    With respect to libraries, a couple of thoughts.
    One of Congress' great successes and one of the 
Commission's successes over time has been the ERAY program 
which reflects a strategy adopted on a bipartisan basis to look 
at different institutions from the one you mentioned in 
schools, although libraries are also in the program, and to say 
we see enormous benefits from connecting schools before we get 
to broadband.
    And I think this is reflected in the statute that we have 
been asked to look at in connection with the broadband 
strategy. Libraries have all of the benefits that you spoke 
about; schools, health care facilities, these all have both 
direct benefits because if these local institutions can be 
connected to broadband, there are obvious benefits to each 
library, schools, hospitals; and they also have these extra 
benefits that you mentioned that driving high-speed Internet to 
these institutions help solve the last mile problem and other 
problems in the community through both wire and wireless 
options.
    We have heard the phrase in our workshop so far as 
strategic institutions, encouraging us as we develop a national 
broadband strategy to think in part about what we can do to 
help ensure that strategic institutions in the U.S. have access 
to a robust pipe for exactly these reasons. And I think you 
will see that discussion network continue.
    Mr. Boucher. Thank you very much, Mr. Chairman.
    The gentleman from Florida, Mr. Stearns, is recognized for 
5 minutes.
    Mr. Stearns. Thank you, Mr. Chairman.
    And I appreciate your comments about the FCC. It is very 
refreshing to hear how they are working in a bipartisan 
fashion, and of course I attribute your leadership, too, 
because you are working in the same capacity here in this 
subcommittee.
    I think we heard from our ranking member on this side, Mr. 
Barton, he and I drafted a bill, 2183. Mr. Chairman, this bill 
probably can be enacted by you without passing this bill, and I 
am not sure, since we are in the minority, we will have any 
chance.
    But I think the question for you is over the years, I think 
both sides, both Republican and Democrat, think there has been 
a lack of transparency on the basis of the FCC's commission. 
Perhaps, as Mr. Barton said, it has become opaque. So we would 
like to see published a specific text of proposed rules in a 
timely fashion, allow the public at least 30 days to file 
comments, 30 days to file replies, establish deadlines, and 
public decisions within 30 days after adoption. I would like 
your assurance that you will perhaps implement these and make 
the FCC more transparent.
    And I will ask Commissioner Copps and McDowell right down 
the line to get your opinion.
    Mr. Genachowski. I think these FCC processing issues are 
very important. They do relate to better decision making. At 
the FCC, as I mentioned one of the first things I did was 
appoint a very-well respected special counsel for reform who 
was leading this process. And I have asked her and the team 
that is working on it to take all of these ideas into account, 
and we will.
    Transparency is incredibly important. We have taken some 
steps, as I have mentioned already. Probably the most important 
is the way we have run our broadband process. Through open 
workshops, publishing a schedule of workshops encouraging broad 
participation, each of the workshops are in public. You see 
staff rolling up their sleeves with a mixed group of people.
    Mr. Stearns. This place is packed by a lot of people, and 
these people are probably saying tell us what the procedures 
are so we can follow and we can have them in place so we have 
the transparency so we can compete. Commissioner Copps, I guess 
the question is do you agree, perhaps, in that there needs to 
be more transparency?
    Mr. Copps. I do agree with that. I tried to foster that 
kind of transparency when I was chairman. I am sure under 
Chairman Genachowski that we are going to have that.
    I would like to ask you for some help to make our 
Commission run better, and I have talked about this before, and 
I know some member of the committee--I remember a dialogue with 
the Mr. Barton last time and he was supportive of this.
    We are talking about the sense of camaraderie we have here 
with the openness in the discussion, yet more than two of us 
can never get together to talk. We have this incredible array 
of talents and experiences.
    Just putting myself in your place, if you could only talk 
to one other of your colleagues and nobody else, you would be 
in one hell of a fix. And I think we are in a fix that way, 
too. I think we need to do something.
    Mr. Stearns. Thank you.
    Mr. McDowell?
    Mr. McDowell. I support the spirit of your bill. I agree 
with Commissioner Copps' Sunshine Act reform among some other 
statutory reforms would be helpful. I have been speaking out 
about FCC reform for a couple of years but most vocally this 
year. I have attached that letter as part of my written 
testimony to Chairman Genachowski in July. There is a lot more 
work to be done.
    I think we do have the building blocks to do a lot of the 
FCC reform already. So we do have the building blocks to make 
it a good, effective, transparent agency.
    Mr. Stearns. Commissioner Clyburn, I think with your 
experience you would think transparency is key. In fact, I want 
to comment, you were the only one that was right on time within 
the 5 minutes.
    I was impressed.
    Ms. Clyburn. And I appreciate it.
    One of the things that we are considering doing inside of 
the agency to promote greater transparency is revising our own 
ex parte rules and--to make sure that the public knows how we 
are dealing with outside parties and what is being 
communicated. So we are taking internal efforts, making 
internal efforts towards that, also.
    Mr. Stearns. I am going to start with my next question for 
Commissioner Baker.
    Just recently, the D.C. Circuit threw out the FCC's cable 
ownership cap because the FCC had failed to account for all the 
video competition to cable that comes from satellite and phone 
companies. I guess will you commit not to support regulatory 
and interagency in today's competitive market and just allow 
innovation and without making detailed showing of both market 
power and market failure? And so perhaps you might comment on 
that.
    Ms. Baker. Yes, I will commit to that. Absolutely.
    I think we have a new media landscape. I think that is what 
the new D.C. Court told us. I think that we need to continue to 
foster innovation. I think, generally, as a principle I start 
with markets work better than regulation, and we need to make 
sure that we add all the incentives that we can to the 
marketplace.
    Mr. Stearns. Mr. Chairman, I would just like comment on the 
D.C. Circuit's actions.
    Mr. Genachowski. Well, when the market works and there is 
sufficient competition, then the FCC has no need to act. When 
the market isn't working and consumers could benefit from 
policies to promote competition, then the Commission must act. 
And I think we have seen over time that both are true, and it 
depends on particular circumstances.
    Mr. Stearns. Thank you.
    My last question, if I could, Mr. Chairman, is dealing with 
more of a local parochial issue. I have a community called Palm 
Cay in my congressional district, and they have a cable company 
called Cablevision of Marion County, and the problem is they 
can't terminate their cable service. We have written to the FCC 
about this, and it seems unfair and a potential violation of 
the FCC report and order 17-089 declaring exclusive contracts 
to be null and void. And I am just wondering if you could give 
us an update on my letter to you dealing on behalf of the Palm 
Cay community and what can be resolved ultimately and how 
quickly.
    Mr. Genachowski. It is a fair issue to raise. We had a 
chance to speak about it, and after our meeting I spoke with 
the media bureau and told them this proceeding has been open 
since 2007. That is about long enough. So they are hard at work 
at resolving it. I can't give you a specific date, but we will 
work to resolve it and generally work to close out open 
proceedings like this.
    Mr. Stearns. Certainly before the end of the year?
    Mr. Genachowski. Yes.
    Mr. Stearns. Thank you.
    Mr. Boucher. Thank you very much, Mr. Stearns.
    The gentlelady from the Virgin Islands, Mrs. Christensen, 
is recognized for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman; and thank you 
all for your testimonies.
    I have a parochial question, also. The FCC previously ruled 
in favor of interim cap on universal fund high payments to 
competitive eligible carriers in the Virgin Islands. We just 
had one. So we really lag behind the rest of the country in 
terms of competitive entry. Do you think that the interim cap 
in any way creates barriers for competitive entry in poor 
areas? And would the FCC consider exemptions for areas like 
mine that just had one carrier and now the universal high fund 
payments are closed off to any other carrier?
    Mr. Genachowski. I had a little bit of a hard time hearing 
the question, but I think I understood it.
    Tackling the challenges of universal service is very 
important for the Commission. On one hand, it has been an 
extraordinary success for the country, helping deliver 
telephone service to all Americans everywhere, as Commissioner 
Copps said, without regard to who they are or where they live. 
At the same time, it is very clear that the system is under 
pressure for a series of reasons relating to changes in the 
marketplace. There are broad global issues that have be 
addressed with the USF, and then there are a series of the sort 
you mentioned that come up in particular markets that we have 
to address. Last, it relates in an important way to broadband, 
because we do need to move USF to a program that supports 
broadband.
    I wish it were easy, and we could flash cut and move over. 
It will be difficult. It is an area where the Commission will 
be working on it. As Chairman Boucher said, he is working on a 
bill. We will be a resource for the Commission, and I hope this 
is something that we can all solve together. It is an important 
challenge for the country.
    Mrs. Christensen. Thank you.
    And I will just direct this out. Anyone can answer it.
    As I read the testimonies, and we had NTIA and RES here 
last week, most of the outreach is done through the Internet. 
And we still have a digital divide in this country, and there 
are many people that are not getting the information. Someone 
said somewhere last weekend--I don't remember who it was--that 
in our communities, the disadvantaged communities, we don't 
even know what we don't know. So how do you plan to reach out 
to those people who are still not connected? And we still have 
an issue of increasing demand for broadband as we proceed to 
build up. So are we able to reach people who don't have 
Internet connectivity to get their input as we move forward?
    Mr. Genachowski. We have to. It is incredibly important. It 
is one of the reasons that we are doing the open workshops 
where people can come in and participate. They can participate 
online. They can come in. And it is why we are starting field 
hearings, as Commissioner Baker mentioned.
    There is such an important, challenging--I don't know if it 
is a Catch-22 or a virtual circle, depending on how you look at 
it. If the government wants to communicate with my 17-year-old, 
they had better use the Internet. If the government wants to 
communicate with my parents, don't try. And this is a real 
challenge for government, because we do have to reach people in 
a variety of ways when it comes to services in the ways that 
people actually communicate.
    One of the big benefits of pursuing universal broadband is 
that--and this won't happen quickly, but when it happens, there 
are tremendous potential cost savings for government. Because 
instead of communicating with people and providing services as 
we have to do both online and offline, we can begin to provide 
more and better services online. We can't do that until we have 
really achieved universal broadband because of the real 
challenges that you mentioned. We can't leave people with an 
inability to participate and to benefit from the services and 
information that the government supplies.
    Mr. Copps, did you want to--
    Mr. Copps. Well, I very much agree with that. But I also 
would just add that until we get to that day when we have that 
capacity, we have all of these nontraditional stakeholders who 
don't know what is going on at the FCC and don't have the 
resources to hire a lobbyist or a law firm in Washington, D.C. 
Yet they are impacted daily by the decisions we make.
    So I think--and Chairman Genachowski is doing a sterling 
job of this. We are going to have hearings. We are going to be 
reaching out to minority groups. We are going to go to the 
inner city as well as to rural America. We are going to talk 
with the disabilities communities. I have already been to 
Indian country, because the problems there are so glaring.
    So we really have to use every technology, every device, 
old-fashioned, new-fashioned, or whatever, to get the word out 
and get the participation of everybody in this broadband plan. 
Because, in the final analysis, the broadband plan ought to be 
of, by, and for the American people.
    Mrs. Christensen. I have about 10 seconds, if you would 
like to add.
    Ms. Clyburn. He is allowing me to go out of order of 
seniority.
    One of the things that I am excited about is it was 
mentioned about the field hearings. I am planning a field 
hearing for October 6 in Charleston, South Carolina. And one of 
the things that I am keenly tuned in on is I am trying to do it 
from a two-fold perspective, meaning doing some work in the 
city where you have some problems of maybe underserved 
challenges and going out into rural areas where there are 
unserved challenges and speaking with some friends and church 
members who--some of whom are friends, also. I don't want to 
say that I am excluding. And librarians. My mother was a 
librarian. All of these groups that you mentioned. All of these 
persons need to be engaged in these conversations, and then and 
only then can we maybe get the ground swell that we need to 
promote this broadband universe in which we know the public can 
benefit.
    Mr. Boucher. Thank you very much, Mrs. Christensen.
    We are expecting a series of recorded votes on the floor 
starting potentially within the next 10 minutes, and Mr. 
Stearns and I were talking about a way that we might be able to 
facilitate the questioning of witnesses in the hope that 
perhaps we could finish our work here before these votes begin. 
We have a large number of them pending, and it may be an hour 
or more before the votes are completed, and we were thinking 
that perhaps we could ask members if they would be willing just 
to ask one question each. Would that be satisfactory? If 
anybody seriously objects to that, this might not--Mr. Barton.
    Mr. Barton. Reserving the right to object.
    Mr. Boucher. Please, Mr. Barton.
    Mr. Barton. I am not aware, what is the availability of the 
Commission? Do they have to leave at a time certain?
    Mr. Boucher. I am not aware that they do. We could have 
them go to lunch and then come back. My concern is that I think 
many members may have flights scheduled for the early afternoon 
in anticipation of the House adjourning for the week, which we 
are going to be doing by about 1:30 or so.
    Mr. Barton. Continuing my right to reserve, Mr. Chairman, I 
will do whatever you and Mr. Stearns have agreed to. But I 
think it is so rare that we get the entire Commission here. If 
members self-select not to question, then that is their 
decision to self-select and, in my case, go to Texas as opposed 
to stay here and be intellectually stimulated. But I would 
encourage the chairman and the subcommittee ranking member to 
allow those members who wish to fully participate past the 
departure time of the Congress or the adjournment time to do 
so, because we don't get the entire Commission very often. And 
there are some new ideas. I listened in my office to all the 
statements of the Commissioners, and I would--again, if you and 
Cliff have made a decision, I am not going to object.
    Mr. Boucher. Would the gentleman yield to me?
    Mr. Barton. Sure.
    Mr. Boucher. We haven't made a decision. We decided we 
would ask the members what they wanted.
    Mr. Barton. My preference would be to let each member ask 
at least 5 minutes. That is a preference.
    Mr. Boucher. And I agree with what the gentleman's saying 
about the unusual importance of this hearing as compared 
perhaps to some others. We will proceed in regular order. I 
think we have now consumed most of the time we have remaining 
anyway.
    The gentleman from Texas, Mr. Barton--
    Mr. Barton. This happens to be my time.
    Mr. Boucher. --is recognized for 5 minutes.
    Mr. Barton. I am not going to try to use all 5 minutes.
    I am going to list the things I want to talk about and then 
let the Commissioners, primarily the chairman--I want to talk 
about transparency. I will just say that I heard what 
Commissioner Copps said. I agree with him. I would be happy to 
work with the Commission to put together an amendment or a 
draft bill to try to get the subcommittee and full committee--I 
think you all should be able to communicate without having to 
go into formal session. So however we can facilitate that, I 
support that.
    As I said in my opening statement, I think we need to have 
more transparency in the Commission, and Mr. Stearns and I have 
introduced a bill to that effect, and we would ask the 
Commission to comment on that bill to see if it needs to be 
improved.
    My first question is to the new chairman on the spectrum 
auctions. We don't have much new spectrum in the pipeline. We 
have a bill in on it that is a bipartisan bill on the spectrum 
inventory. Do you have any thoughts that you would share with 
the committee on what conditions, if any, if we try to 
reauction the D Block that has already failed once?
    Mr. Genachowski. Two points quickly, Mr. Barton. One, on 
transparency and FCC reform, I look forward to working with you 
as part of our process to make sure that we have an FCC that is 
open, transparent, fair, data driven, and that really is the 
expert agency that benefits the entire country.
    On spectrum quickly, second, there is a demand crunch 
coming. We need to put more spectrum in the marketplace, and 
the pipeline is not what it needs to be. And so I would welcome 
passage of the inventory bill, and our role in that and the 
NTIA's role in that I think will be very important.
    Third, with respect to the D Block, that is a spectrum that 
we can get on the market soon. The challenge of the public 
safety component of it is real. I am focused on making sure 
that we get it right. I don't want to rush into a failed 
auction, but I also think we need to move quickly to address 
the issues Commissioner Copps as acting chairman caused the 
agency to begin work on.
    The agency has jumped into it. The D Block, of course, 
comes up often in connection with our broadband plan. So we 
don't have anything now in terms of what we will be looking at, 
but the staff is hard at work.
    Mr. Barton. Do you have a time frame to put some proposals 
out there for the D Block?
    Mr. Genachowski. It is something that is being actively 
looked at, and I think no later than in connection with the 
broadband plan we will have an option.
    Mr. Barton. Are you talking about February? Is that because 
the broadband plan I think is--
    Mr. Genachowski. Yes. No later than February we will have 
real options that we are looking at and considering, because of 
the nature of the spectrum and its relationship to a national 
broadband strategy.
    Mr. Barton. My last question deals with universal service 
reform. I don't think it is any surprise to anybody who has 
followed this committee that I am a big proponent of that. The 
universal service fund continues to grow. The costs continue to 
go up. Do you have any--again, this is to you, Mr. Chairman. Do 
you have any thoughts on reform measures with regards to the 
universal service fund? And, do you have a timetable for the 
Commission considering those?
    Mr. Genachowski. The timetable will be similar. No later 
than February in connection with the national broadband 
strategy will we have options to look at and policies to 
consider. Because USF and broadband will be an important part 
of the discussion. Many people are raising it, including many 
on the committee.
    As I said before, there are real opportunities and 
challenges both with the universal service fund. I don't think 
I need to repeat them. You know them extremely well. It is a 
complex challenge on which there are some areas in which there 
is beginning to be some consensus, but more work needs to be 
done to have universal service reform that works well for the 
country. I know the committee is looking at this as well, and 
we will continue to be a resource for the committee as it does 
its work.
    Mr. Barton. My next question, if you don't want to answer 
this, you don't have to. Do you have a frequent conversation 
with the President? I mean, are you and he in communications so 
that we know that the FCC has got a direct line to the White 
House? Which we haven't had with some other chairmen in the 
past.
    Mr. Genachowski. I don't think anyone speaks with the 
President as frequently as they might have in the past.
    Mr. Barton. All right. I yield back, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Barton.
    The gentlelady from Florida, Ms. Castor, is recognized for 
5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    Chairman Genachowski, I appreciate your words on the 
spectrum; and I would like to hear from the other members 
concerning the spectrum, what your thoughts are, what your 
concerns are as we look at greater availability for new and 
innovative services.
    Mr. Copps. Well, I certainly share the thought of several 
of my colleagues, that we are in dire need of a spectrum 
inventory. I think as of 12:20 this afternoon on the 17th of 
the month, there is nobody in the United States who has the 
foggiest idea of how much spectrum is being used and utilized 
and if it is being utilized 24 hours a day or 10 seconds a day. 
So we really need to get a handle on this.
    We need to make sure our auction system is working properly 
and is inviting the participation of small as well as large 
competitors. We need to make sure that spectrum is being used 
and utilized; and, if it is not, I think we ought to be looking 
at some alternatives for other uses of that spectrum that may 
have been licensed.
    So these are a few of the things that I think we need to be 
concerned about. But what I am hearing from all of the folks 
testifying on the broadband workshops is that, in many ways, 
this comes down to a question of is there spectrum to do what 
we need to do.
    Mr. McDowell. I would welcome an inventory on spectrum, 
absolutely. We need to be careful what our expectations are 
once we get that inventory. Given any particular point on the 
map, it is very difficult to determine who is using what 
spectrum for what purpose, and I want to make sure I am briefed 
so I can allow time for Commissioner Baker, who is the true 
expert in government use of the spectrum, since she managed 
that as acting head of NTIA. But we have a lot of spectrum that 
is not on line yet, from our AWS 1 auction in 2006. That is not 
yet built out. We have the 700 megahertz auction. Remember, the 
DTV transition just happened. We just had that auction last 
year. That is not built out. We have a lot of work to do in the 
television white spaces.
    All of this is fabulous spectrum. The propagation 
characteristics there are that signals can travel a long 
distance and penetrate buildings; and it can be a fabulous 
asset, a great arrow in our quiver to resolve the broadband 
problem in unserved America.
    But let's be careful of what we want to do. Let's make sure 
we are flexible. Let's not try to micromanage the use of that 
spectrum. Let's make sure we require it to be used. But by the 
time we implement a government-mandated business plan, 
sometimes the market moves past that, as we have found in 
several instances. So we need to be careful.
    Also, to be mindful that our spectral efficiency in this 
country doubles every two and a half years, sort of tied to 
Moore's law of computing. So that since Marconi's first 
transmission by radio or invention of the radio, we are now two 
trillion times more spectrally efficient. So keep that in mind.
    Ms. Clyburn. I agree with my colleagues that we need to 
understand what is out there and how it is being used. It is 
critical. It is really critical that we have detailed data so 
we can allocate more effective--allocate spectrum and allocate 
it effectively.
    Ms. Baker. I will agree with all my colleagues. But where 
we need to go is we need to have a more efficient, we need to 
have a more transparent and a more flexible spectrum policy.
    And I think there is an awful lot of things we can do and 
an awful lot of ways we can work with our government partners 
as well. I think the government often hears government is 
inefficient, but DARPA spends more money on R&D in this area 
than probably anyone else. They have come up with a bunch of 
things like dynamic spectrum access and multi-antenna signal 
processing that are going to help us make more efficient use of 
what we have.
    But I agree with Commissioner McDowell. We have a lot that 
is in the pipeline. We have the 700 megahertz. We have the AWS. 
We have the BRS spectrum. That is all coming up that is not 
fully built out. But we need to lay the plans for the step 
after that, and so I am committed to and look forward to 
working with you on that plan.
    Ms. Castor. Thank you very much, Mr. Chairman.
    Mr. Boucher. Thank you very much, Ms. Castor.
    The gentleman from Michigan, Mr. Upton, is recognized for 5 
minutes.
    Mr. Upton. Thank you, and I will be very quick. Two brief 
questions and a comment.
    First of all, I want to make sure that you all know that I 
believe, on the wireless side, that folks are very satisfied.
    We will deal with Mr. Markey's adaptor. I will make sure 
that he has got plenty, both in Massachusetts and here and both 
when he is in the car as well as in his office. But we don't 
want to fix what is broken. I don't believe that there is an 
effort that we need to pursue to regulate.
    My two questions are these: Regardless of which position 
one might take on the issue of special access market, all sides 
now seem to be asking the Commission to collect data on the 
market, and it seems to me that it is time to get the facts on 
the table, especially before you begin to work on the broadband 
plan.
    So, Mr. Chairman, do you plan to collect special access 
data from the carriers and interested parties? And, if so, 
when? That is question number one, in the interest of time.
    Just as we deal with the challenges of the transition to 
digital, we have a couple of areas, I would presume, around the 
country, certainly in my district where it seems like those 
challenges are a little bit high, of if we are able to 
accommodate perhaps a burst of additional power on the digital 
signal so that folks can get from WGN or some of our local 
channels that may be at the very edge would be helpful.
    I look forward to hearing from you in terms of how you are 
dealing with those special, hopefully unique, cases; and I 
yield to you to respond.
    Mr. Genachowski. On special access, it is something that we 
are hearing a lot about from multiple parties. The staff at the 
FCC has been working on the data issue for at least as long as 
I have been there. We haven't decided whether we will need more 
data in order to reach a decision on special access, so the 
next step that you will hear from us is our view on whether we 
have enough data to make a decision.
    On digital television, I have instructed the media bureau 
to work diligently, closely with every broadcaster in the 
country that has specific issues. The first challenge that 
Acting Chairman Copps at the time and Commissioner McDowell led 
so well was the overall challenge for the country. Now it is a 
lot of case-by-case problems that come up. The staff of the 
media bureau is showing up every day working with broadcasters 
to try to address specific issues, and we will work with you.
    Mr. Upton. Thank you.
    Yield back.
    Mr. Boucher. Thank you, Mr. Upton.
    The gentleman from Massachusetts, Mr. Markey, is recognized 
for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much; and thank 
you, Commissioner Genachowski, and, again, thank you for your 
brilliant decision in hiring Colin.
    Mr. Genachowski. Thank you for your gift.
    Mr. Markey. You know, we talk enough about public option, 
but I would like to talk about the portability option, which is 
this charger issue. You know, if you buy a new TV, guess what, 
when you plug it in, you don't need anything else. It works 
just like the old TV. If you buy a new radio, you plug it in. 
You don't need anything else. It works just like the old. You 
buy a new car, guess what? They don't change the way you put 
gasoline into the car. It all is the same. It is kind of a 
standard--you don't have to buy some new adapter to put the 
gasoline in your brand-new car, just like the old car.
    So here you have this thing where tens of millions of these 
devices have to be purchased and then thrown away within like a 
year and a half or so as you get your new device. That is a 
pretty huge environmental problem across the country to dispose 
of all this stuff, plus it is just a pain, just a pain to have 
to go through it.
    So my hope is that the Commission could look at this. My 
intention is to introduce legislation on it. I am going to work 
with Mr. Doyle and work with other members to kind of track 
down this issue and just to make it easier for people so they 
don't have to fork over this extra dough. So if I could work 
with the Commissioners, would you be willing to work with me on 
that?
    Mr. Genachowski. We would be happy to work on it. I think 
simply raising the issue has done the first step, which is 
challenging our great technology industry to come up with a 
solution. I am glad that you have raised it. I have raised it 
with some technology companies. There is a desire to solve 
this; and looking at what, if anything, the FCC can do to 
incentivize some innovation to reduce the number of chargers 
would be something we would be happy to work on.
    Mr. Markey. As the chairman of the Environment Subcommittee 
here, it is just becoming a huge environmental issue that is 
unnecessary. There has got to be some little fix that we can 
put in that makes the old adapter still usable. It doesn't seem 
that complicated.
    And, second, you know, I am developing legislation to 
create an E-Rate 2.0 for broadband; and I noted that the 
Commission held a workshop on August 20 to identify new issues. 
Can you share your thoughts on updating and refining the E-Rate 
program to capitalize on broadband?
    Mr. Genachowski. We are looking, as part of the broadband 
strategy, in part because Congress told us to, not only at 
employment and adoption but also what the statute called 
national purposes, how to make sure broadband serves health 
care, education, and energy. The E-Rate has been such an 
extraordinary success, let's lead the world in education, 
libraries, hospitals when it comes to broadband; and we would 
be more than happy to be a resource to you in thinking through 
the best way to make that happen.
    Mr. Markey. That would help me a lot, Mr. Chairman.
    The thought that I had back in January and February of this 
year was, here is this great stimulus package. There is a 
broadband component to it. Why don't we just have a plan for 
the Nation? And so that is why I added that amendment into the 
bill, so that we could all step back, put together this plan, 
affect the whole country; and it goes everything from schools 
to hospitals but every aspect of our life.
    Let's be honest. The only reason we have a smart grid is 
that we had a Telecommunications Act of 1996. Because, without 
broadband deployed across the whole country, you can't manage 
the wind and the solar coming in from the prairies and the 
desert. You can't manage it coming in from the ocean. You can't 
manage it coming off of people's roofs. You need the broadband 
telecommunications network to manage it.
    So we need a vision here, you know? That is challenging the 
American people to accomplish it.
    I thank you for the great work you are doing and all the 
other members. I know other members want to ask questions, so I 
will yield back the balance of my time.
    Mr. Boucher. Thank you, Mr. Markey.
    The gentleman from Illinois, Mr. Shimkus, is recognized for 
5 minutes.
    Mr. Shimkus. And I will be real brief, too, Mr. Chairman. 
Thank you for the time again. Thank you for the Commission's 
presence here. And I think we have got a lot of optimism going 
into the future.
    For my friend, Mr. Markey, I will help him create a new 
Federal agency, and maybe we can move some stimulus dollars for 
this adapter program. This is most ridiculous thing I have 
heard of. Handsets are lighter, more efficient. We can't have 
an adapter based upon 15 years ago when the cell phones were 
like bricks, and that is what will happen if we direct a 
solution to this. We have got to let the market do that.
    But I do agree with Ed on the broadband deployment and the 
mapping issue. And I am always angry when we compare apples to 
oranges and we talk about the OECD. In comparing European 
countries, which are small, I always talk about being stationed 
in Germany and being able to drive across the entire country in 
like 3 hours; and I can't get from one part of my congressional 
district to another in 3 hours. Compare our ability to deploy 
with the European miles.
    So, please, when we move forward, let's get off this Europe 
is this, Europe is that. Let's get like, we say in the health 
care debate, a unique American experience that meets our needs 
and not compare us to other places in the world.
    And I am just going to end with that, and I don't have a 
question, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Shimkus.
    The gentleman from Pennsylvania, Mr. Doyle, is recognized 
for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Chairman, in 2003, and again in 2007, the FCC, on a 
unanimous bipartisan basis, voted to recommend to Congress that 
statutory limitations on low-power FM radio stations are 
contrary to the public interest and should be repealed. I have 
introduced legislation, H.R. 1147, the Local Community Radio 
Act, that will do just that. We have already had a hearing, and 
it is my hope that our esteemed chairman will allow us to 
proceed to a markup and pass this legislation soon.
    I know that from the vote in 2007 Commissioner Copps and 
McDowell voted in the affirmative, but we have three new 
Commissioners. So just a simple yes or no from our three new 
Commissioners. Do you also recommend that Congress lift the 
restrictions on LP/FM stations to so-called third adjacent 
protections?
    Mr. Genachowski. Based on what I know, yes.
    Mr. Doyle. Commissioner Clyburn?
    Ms. Clyburn. Yes.
    Ms. Baker. Yes.
    Mr. Doyle. Okay. It is unanimous, Mr. Chairman. Thank you 
very much.
    One other quick question, because I know we are being 
pushed.
    In 2007, many of us have communicated an interest in 
convening a special access proceeding, and I can remember a 
letter that Chairman Markey sent back in the spring of 2007 
urging action on that proceeding. Since then, the issue has 
laid dormant.
    Commissioner Copps, I know you were supportive of learning 
more; and I know, Commissioner McDowell, back in June of 2007 
you wrote a letter back to the chairman saying that you wanted 
a fresh record. My question is, now that both sides have been 
willing to provide the right data--and this question is to all 
the Commissioners--will you support finishing that inquiry that 
has been sitting there since 2007 sometime before we all die, 
preferably by the end of the year?
    Mr. Markey. Will the gentleman yield?
    Mr. Doyle. Yes.
    Mr. Markey. Thank you. And I am closer to that point in 
time than you are, so thank you. A well-raised question.
    Mr. Genachowski. Yes. It is an important topic that has 
been raised with us by so many people that special access is a 
key part. It is an important part of the communications 
ecosystem, and we do need to make sure that it is competitive. 
So it is something that the staff is actively working on and we 
will be addressing soon.
    Mr. Copps. I remember signing a letter to then subcommittee 
Chairman Markey that September, 2007, would suit me just fine 
for deciding special access; and I remain of that opinion.
    Mr. McDowell. I think we should resolve the issue. It is 
very important to broadband. I think what we need, though, and 
I have been asking this for 2 years and it could have been done 
by now, a long time ago, is a very granular analysis of data 
gathering. Not just both sides. There are more than two sides 
on this. There are multiple sides with new entrants as well. So 
a cell site by cell site--I will say it again. A cell site by 
cell site, building by building data of who is providing 
special access where and at what cost is the exact same 
information that the Department of Justice had in the bill. I 
see mergers of many, many years ago. It is completely doable.
    I have been talking to our new head of Office of Strategic 
Planning, Paul de Sa, about this. And I think that is the only 
way that, if the Commission does anything in the future, that 
is sustainable on appeal. So I am saying it again.
    Ms. Clyburn. This is a complicated issue that I look 
forward to working on with speedy resolution involving all 
stakeholders and what I know will be a data-driven process.
    Ms. Baker. Sheis right. Especially as a new Commissioner, 
it is complex, it is contentious, but we need to solve it. We 
need to solve it as rapidly as we can. Because it is an input 
to an array of the competitive services, including wireless. So 
I think we all are committed to better data and making a 
decision quickly.
    Mr. Doyle. Great. And just very finally and quickly, I want 
to put a plug in for asking the Commission to please take a 
look at wireless microphones in the 700 megahertz. This has 
been brought up as a key public safety and public interest to 
the community. And I hope that we will address that soon, too.
    Mr. Chairman, I thank you. I yield back.
    Mr. Boucher. Thank you very much, Mr. Doyle.
    We now have less than 5 minutes remaining to cast votes on 
the floor. Mr. Deal, do you want to ask your questions?
    Mr. Deal. I would like very much to.
    Mr. Boucher. Mr. Deal.
    Mr. Deal. Georgia football hangs in the balance.
    Recently, the Georgia Athletic Association entered into a 
10-year contract with an interscholastic organization for all 
exclusive rights to their broadcast and to their paraphernalia, 
et cetera. That company, in turn, entered into a contract with 
Cox Communications, the sister--the primary station being in 
Atlanta, Georgia. They have also now apparently refused to 
enter into contract agreements with traditional radio stations 
that have, for as long as 60 years in some cases, been able to 
broadcast Georgia football.
    Now, the result of that is, is that the FCC has approved 
the location and sale of radio stations from one small 
community into others. For example, now Cox Communications owns 
five radio stations in Athens, Georgia, the home of the 
University of Georgia. They have located towers as a result of 
those consolidations and ownerships of these other stations 
within 65 miles of the existing broadcast stations' reach; and, 
as a result of that 65-mile limitation, which is in the content 
owners' contract, the effect is that these historically 
broadcast stations have now been deprived of this ability to 
broadcast Georgia football games.
    Now, my question is, does the FCC take into account any of 
these so-called contractual obligations that will infringe on 
existing broadcasters when you approve of a new license or a 
transfer of a license? Do you in fact look at what the effect 
of it is? And, in many instances, it is only the town that is 
supposed to be the basis of the license. The only time that 
they have any relevance is when, every hour, they announce 
their call letters and they use that town's name, because there 
is nothing located in that town whatsoever.
    That is my first question: Do you have the ability to look 
at those kind of tying agreements in broadcast content when you 
approve the location of stations?
    And the second one is, is there any jurisdiction in the FCC 
to look at what might be considered unfair trade practices that 
might monopolize the public air waves? Or is this something 
that is within the Federal Trade Commission's jurisdiction?
    Mr. Genachowski. If I could, let me pledge to get back to 
you on the answers to some of the technical questions about FCC 
jurisdiction. At a higher level, you are raising issues about a 
changing media landscape, competition in this new environment, 
the importance of local broadcasting, and the real interests of 
consumers and viewers.
    One of the things that I am trying to make sure we do is to 
make sure that we have an FCC that is smart about the 
marketplace, smart about the consumer needs, smart about viewer 
needs. So let me--I understand that this is an important issue, 
and we will follow up with you to understand it better and 
answer your questions about jurisdiction.
    Mr. Deal. Mr. Chairman, could we be allowed to formalize 
these into formal questions to submit to the panel?
    Mr. Boucher. Without objection, the record of this hearing 
will remain open for a period of 2 weeks, during which time 
members can submit written questions to our witnesses.
    Mr. Deal. Thank you.
    I yield back.
    Mr. Boucher. Thank you, Mr. Deal.
    Mr. Buyer, we have got about a minute left on the floor.
    Mr. Buyer. I am going to be really quick so I can let all 
of you go.
    We are going down the line, yes or no: Do you support 
exclusive handset arrangements? Yes or no?
    Mr. Genachowski. It doesn't lend itself to a yes or no. I 
apologize.
    Mr. Buyer. Keep going.
    Mr. Copps. I would give the same answer.
    Mr. Buyer. That is a nonanswer. Keep going.
    Mr. McDowell. Yes.
    Ms. Clyburn. The same answer as the Chair.
    Mr. Buyer. I have got three nonanswers and a yes.
    Ms. Baker. Yes.
    Mr. Buyer. Two yeses and three nonanswers.
    All right. On the issue that was brought up with regard to 
spectrum auction, you had mentioned that the 06 has not been a 
build-out. Hereis the question: I have a real problem, i.e., 
the Federal Government. Fidelity I think is a tremendous--it is 
a value of the virtue of integrity. And if the Federal 
Government--if we are not going to have fidelity and uphold our 
commitments to companies that actually give us money and we 
don't free up that spectrum, should we consider a government 
penalty?
    Right down the line. Should we consider a government 
penalty, in other words, pay interest to these companies for 
the use of their money?
    Mr. Genachowski. I am not sure I understand the question. 
If companies don't comply with FCC rules, they should--
    Mr. Buyer. How about, we are anxious to penalize companies, 
And when it comes to auction, we will take their money, but we 
are not freeing up spectrum. We are not--agencies are standing 
in the way. DOD, for example. So should we be paying interest 
on the use of this money when they pay it in?
    I am curious. Right down the line, yes or no.
    Mr. Genachowski. I would like the chance to speak with you 
further about it, because--
    Mr. Buyer. A nonanswer. Go down the line.
    Mr. Copps. Nonanswer.
    Mr. McDowell. Yes.
    Ms. Clyburn. Nonanswer.
    Ms. Baker. Yes.
    Mr. Buyer. Wow. Interesting.
    The other is, Ms. Clyburn, I spent a couple days with your 
parents not long ago, a couple years ago, and you have probably 
heard this before. You look like your mom, you sound like your 
mom, and that is a compliment.
    Ms. Clyburn. Thank you.
    Mr. Buyer. Everybody thinks it is your dad, but it is your 
mom. That is what I learned quickly by spending a couple days 
with her.
    When you go to Charleston and you do this little hearing, 
and I want you to think about the unserved, whether it is on 
Johns Island, Edisto, Walhalla. So when you are thinking about 
the underserved, think in your mind we do not want to bring 
shame into the system. Shame is, is when you--if you are at a 
buffet and 80 percent of the people have already eaten but 20 
percent haven't had a chance to eat, you don't go get seconds 
and get in line before people who haven't eaten. Right? That is 
shameful conduct in America.
    So as you make these decisions about the difference between 
unserved and underserved, let's make sure that we are fair and 
equitable and we don't embrace shameful conduct and behavior by 
us.
    Ms. Clyburn. Absolutely.
    Mr. Buyer. The last thing is, in a market-based approach, 
please do this for me when you think about these judgments. 
Focus on consumer demand, and let supply and price work itself 
out. Okay?
    Ms. Clyburn. I appreciate your guidance.
    Mr. Buyer. And I see the power of South Carolina on this 
Commission, so I will be keeping my eye on it. Thank you.
    Mr. Boucher. Thank you very much, Mr. Buyer; And thanks to 
all the members for being expeditious. We, unfortunately, do 
have at least one other member who wants to propound questions. 
We now must recess the subcommittee. I would suggest that each 
of you have a marvelous lunch, and please return here at about 
a quarter to 2:00, and at that point in time well continue our 
hearing. It should not take very long after that.
    The hearing stands in recess.
    [Recess.]
    Mr. Boucher. The subcommittee will come to order.
    I want to thank the members of the FCC for their patience. 
I am sorry that we were delayed a little bit longer than I had 
predicted. That is usually the case. But you have been very 
patient. I hope you enjoyed lunch, and welcome back.
    The gentleman from Oregon, Mr. Walden, is next to be 
recognized, and he is recognized for 5 minutes.
    Mr. Walden. I want to thank the Commissioners. I have 
enjoyed getting to know some of you over the years, and I look 
forward to spending more time with you. And I appreciate the 
cordiality that we are seeing on display today, your 
willingness to work together and talk together; and I realize, 
with many new members and leadership, it is a new FCC.
    I had not planned to get into this issue today, but the 
letter that has come forward from interest groups prompted me 
to do some research in the last 24 hours.
    It is troubling what I have been reading regarding a 
gentleman who has now been given a special position at the 
Commission, head of diversity and special counsel position, Mr. 
Lloyd. And I was just reading a document from the Center for 
American Progress where he outlines his various views, an 
article of July 24, 2007. And, you know, I think I have shared 
with some of you that my wife and I were in small market radio 
ownership for nearly 22 years. My father helped put stations on 
the air back in the 1930s and believed very strongly in the 
responsibility of licensees to serve their communities.
    So when I read that this gentleman says that commercial 
signal broadcasters want to be trustees of public property but 
without responsibility, I gotta tell you, I take offense to 
that. I don't think I am taking that out of context. It is 
written right here.
    And some of the other comments that have recently been made 
available to me show me that you have got a person in there who 
I don't recall over the years the FCC having that strongly 
opinionated a person in a position like that. The FCC to me has 
always been a very professional organization that didn't go 
down this path. So I find this very offensive.
    Chairman, you and I had a very good conversation about 
fairness doctrine. You know my feelings on that. I received 
your comments, and I understand you are for not putting it back 
in, and I am not for putting it back in. It didn't work when it 
was there. I happen to believe it is probably unconstitutional.
    The information from Mr. Lloyd would indicate he is not for 
putting fairness doctrine back in. He is just for a whole 
different scheme that gets to the same outcome. And his 
appointment occurred after our conversation. This is all 
bubbling up right now.
    But you want to talk about czars, I hope we don't have a 
government speech czar in place. It is going to drive a whole 
different mechanism through the rule making and challenging the 
licensees.
    I am just trying to figure out what his position is, what 
his responsibilities are. Will we have an opportunity to ask 
him questions about these issues? I have got to tell you, I am 
out of the business now, but I am deeply offended by what I 
read here and troubled. And I open it up to any of you to 
comment.
    Mr. Genachowski. First, I did enjoy our meeting. I 
mentioned when you were out of the room earlier it led to some 
constructive follow-up. We took your idea around--I happened to 
have the media bureau staff meet with broadcast engineers that 
actually produced some concrete suggestions. It relates to some 
of what the goals are with the staff of the FCC.
    In my opinion, an expert agency needs to have a broad range 
of people with different backgrounds, different expertise; and 
we talked about some of those people when we got together, 
people from the business community, a vibrant exchange of ideas 
internally.
    I understand some of the concerns you have, and I can say a 
couple of things.
    One is, to the extent there is a concern that the 
Commission would engage in any censorship of broadcasters or 
anyone in the media on the basis of political views and 
opinions, The answer is, we won't. The first amendment 
prohibits it. It won't happen.
    To the extent that there are concerns--you have indicated 
about the Commission not being aware of the economic conditions 
and challenges that broadcasters face. I can assure you that 
anything the Commission does would take that into account. The 
Commission needs to understand what is going on with 
broadcasters.
    Similarly, I appreciate your point about broadcasters and 
special responsibilities; and I know so many broadcasters take 
that seriously, provide very valuable services to the 
community. Americans value it, local news and information or 
emergency alerts, other emergency information, traffic, 
weather. So I actually think there is a lot of agreement around 
core principles.
    Diversity is another area where for a very long time there 
has been--I think there still is--a bipartisan consensus that 
it is an important objective of the communications policies and 
the FCC. The diversity goals are mentioned in hundreds of FCC 
decisions. They are explicitly in the Communications Act. The 
Supreme Court has acknowledged that it is a role, and the idea 
of having diversity as an objective to the FCC and having staff 
focused on it seem to be a natural extension.
    Mr. Walden. I do not take exception to that. I just begin 
to read what he said. There are video comments about Hugo 
Chavez. I mean, there are some pretty outrageous things being 
said, having been written in the past, and that troubles me, 
that somebody that is that opinionated to the extreme element 
that he is, from my perspective, it is not going to bring 
balance to that diversity position that you created.
    Mr. Genachowski. A couple of points, if I could.
    One is, the policy of the Commission is made by the 
Chairman and the Commissioners. Staff have many different ideas 
all over the map.
    Mr. Walden. Having been a licensee, we don't talk to the 
Commissioners. We talk to the staff. You know what I am saying? 
They have extraordinary power in any agency to tilt the rules, 
to interpret them, to interact with different publics. And this 
just seems to be a very biased person. We all have our biases, 
but this one just seems to be out there.
    Mr. Genachowski. The other thing that I wanted to make sure 
that you knew is, as I said before, Mark Lloyd is not working 
on these issues. He is not working on fairness doctrine issues, 
censorship issues. He is not working on these issues. He is 
working on opportunity issues primarily now around broadband 
adoption, focusing on making sure that broadband is available 
to all Americans.
    Mr. Walden. So he is not going to be working on the license 
issues, none of those things?
    Mr. Genachowski. He is not working on those issues. No.
    He is someone who is well-known to many people in the 
communications industry for a long time. He has been involved 
in these issues. He is known to virtually all of us here on the 
panel. He has taught at MIT. And, as I said, he is someone who, 
of course, we would make available to you or anyone to speak 
with if you have any concerns, as we would any staffer at the 
FCC.
    Mr. Walden. Mr. Copps?
    Mr. Copps. I would just encourage you to take advantage of 
that offer to get to know him a little bit better. Every human 
being is a totality with a lot of different experiences and a 
lot of different ideas.
    We have worked very closely with Mr. Lloyd when he was at 
the Leadership Conference on Civil Rights--an incredible 
organization that is--under the leadership of Wade Henderson. 
He was of great help during the DTV transition with helping 
mobilize a lot of nontraditional stakeholders and helping get 
the word out on DTV.
    So he has a very distinguished record. Chairman Genachowski 
said nothing that I would disagree with. I would agree with 
everything that he said. We will be--the Commissioners will be 
making the decisions.
    But we want a place of intellectual ferment and different 
ideas. We have an organization of 1,800 people. I don't think 
everybody is going to go in lockstep. And then we rely on the 
judgment of the organization and the people at the top of the 
organization to make intelligent decisions about where we are 
going.
    But as for the personal characteristics of this particular 
individual, I think they are of the highest; and I, for one, am 
pleased that he is at the FCC.
    Mr. Walden. Could I hear from the other Commissioners, sir?
    Mr. Boucher. Well, you are going on 9 minutes now, Mr. 
Walden. But if others want to comment very briefly, that would 
be good.
    Mr. McDowell, if you have a comment.
    Mr. McDowell. Well, first are of all, I have met Mr. Lloyd 
in the context of my work at the FCC and in the work of the 
digital TV transition, so that is the only real context that I 
know him. He did, with the general counsel, have the courtesy 
to come to me last week. We had a very nice meeting. We talked 
about what his mission, what his portfolio would be at the 
Commission, and it was as the Chairman had outlined.
    I share your concern with the substance of his writings and 
what he has been reported as saying. I hope that does not 
become Commission policy. I certainly will be very vigilant in 
defending the first amendment and the rights of broadcasters 
and those who speak over the airwaves in that regard.
    At the same time, I do think that the Chairman and CEO of 
the FCC does have the prerogative to hire folks he wants to.
    At the same time, to your point, the career staff or staff 
below the Commissioner level can have great influence without 
us knowing sometimes; and that should be maybe part of FCC 
reform, to make sure it is as transparent an agency as possible 
and take the Chairman at his word that he will work in that 
direction. He has certainly taken some steps in that regard. 
But we will all be watching and mindful, and sometimes just 
shining a spotlight on an issue or concern can be very curative 
and very positive.
    Thank you.
    Mr. Boucher. Thank you very much, Mr. Walden.
    Well, I think we have answered this question.
    I want to say thank you to each of the Commissioners for 
your attendance here today and for the testimony that you 
provided. And I can say that I have tremendous confidence in 
your ability to undertake the difficult challenges before you 
and make outstanding decisions, and we all on this subcommittee 
look forward to our coordination with you as together we seek 
to advance American telecommunications policy.
    We will be having other hearings. We will invite your 
attendance from time to time and be in formal conversation with 
you between those hearings.
    So with the thanks of this subcommittee for your appearance 
today, your outstanding testimony, this hearing stands 
adjourned.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                                 <all>

</pre></body></html>
